<html>
<title> - [H.A.S.C. No. 116-87] THE MILITARY'S #METOO MOMENT: AN EXAMINATION OF SEXUAL ASSAULT AND PERCEIVED RETALIATION IN THE DEPARTMENT OF DEFENSE AND AT FORT HOOD</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 116-87]

                     THE MILITARY'S #METOO MOMENT:

                    AN EXAMINATION OF SEXUAL ASSAULT

                      AND PERCEIVED RETALIATION IN

                     THE DEPARTMENT OF DEFENSE AND

                              AT FORT HOOD

                               __________

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON MILITARY PERSONNEL

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JULY 29, 2020

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                           ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
42-963              WASHINGTON : 2021 
 

                                     
  


                   SUBCOMMITTEE ON MILITARY PERSONNEL

                 JACKIE SPEIER, California, Chairwoman

SUSAN A. DAVIS, California           TRENT KELLY, Mississippi
RUBEN GALLEGO, Arizona               RALPH LEE ABRAHAM, Louisiana
GILBERT RAY CISNEROS, Jr.,           LIZ CHENEY, Wyoming
    California, Vice Chair           PAUL MITCHELL, Michigan
VERONICA ESCOBAR, Texas              JACK BERGMAN, Michigan
DEBRA A. HAALAND, New Mexico         MATT GAETZ, Florida
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia
               Hannah Kaufman, Professional Staff Member
                 Paul Golden, Professional Staff Member
                         Danielle Steitz, Clerk
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Kelly, Hon. Trent, a Representative from Mississippi, Ranking 
  Member, Subcommittee on Military Personnel.....................     3
Speier, Hon. Jackie, a Representative from California, 
  Chairwoman, Subcommittee on Military Personnel.................     1

                               WITNESSES

Bryant, Melissa A., Grass Roots Movement: Justice for Vanessa, 
  U.S. Army Veteran..............................................    28
Del Gaudio, Lucy, Grass Roots Movement: Justice for Vanessa, U.S. 
  Army Veteran...................................................    31
Galbreath, Dr. Nathan W., Deputy Director, Sexual Assault 
  Prevention and Response Office, U.S. Department of Defense.....     5
Wempe, COL Patrick J., USA, Command Inspector General, United 
  States Army Forces Command.....................................     6

                                APPENDIX

Prepared Statements:

    Bryant, Melissa A............................................    65
    Del Gaudio, Lucy.............................................    76
    Galbreath, Dr. Nathan W......................................    50
    Speier, Hon. Jackie..........................................    47
    Wempe, COL Patrick J.........................................    59

Documents Submitted for the Record:

    Texas House Women's Health Committee Letter..................    93
    Texas Senate Hispanic Caucus Letter..........................    96

Witness Responses to Questions Asked During the Hearing:

    Mr. Bergman..................................................   101
    Mr. Crow.....................................................   101
    Ms. Sherrill.................................................   101

Questions Submitted by Members Post Hearing:

    Ms. Speier...................................................   107
              THE MILITARY'S #METOO MOMENT: AN EXAMINATION

              OF SEXUAL ASSAULT AND PERCEIVED RETALIATION

                    IN THE DEPARTMENT OF DEFENSE AND

                              AT FORT HOOD

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                          Washington, DC, Wednesday, July 29, 2020.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2118, Rayburn House Office Building, Hon. Jackie Speier 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. JACKIE SPEIER, A REPRESENTATIVE FROM 
   CALIFORNIA, CHAIRWOMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Ms. Speier. Good morning, ladies and gentlemen.
    This is the Military Personnel Subcommittee. I am the 
chair, Jackie Speier, and today we are going to have a hearing 
entitled, ``#MeToo Moment: An Examination of Sexual Harassment 
and Perceived Retaliation in the Department of Defense and at 
Fort Hood.''
    The hearing will now come to order.
    We are here to discuss a pernicious military culture that 
time and time again, SAPRO [Sexual Assault Prevention and 
Response Office] report after SAPRO report, exposes an 
environment that is ripe for sexual harassment, where women are 
afraid to report their harassers because of a stigma, fear of 
retaliation, ostracism, or worse, fear that they won't be 
believed and the harassers won't be held accountable.
    By declaring #IAmVanessaGuillen, thousands of service 
members and veterans have taken to the streets and social 
media, demanding safety and respect, demanding that the rules 
of the, quote, ``Old Boys' Club'' and the, quote, ``locker room 
talk'' are no longer the price of admission.
    Demanding that the sexually explicit language in the motor 
pool, in the field, or in the office, stop.
    Demanding that the unwelcome stares in the dining facility 
and the unyielding sexual propositions, or worse, stop.
    In an institution that prides itself in cohesiveness, to 
leave no soldier behind, we are failing. These service members 
and veterans who have taken to the streets, spurred by the 
horrific circumstances surrounding Specialist Vanessa Guillen's 
disappearance and murder, raised their voices and laid bare 
their stories of sexual harassment and assault in the military.
    For too long they have lived and suffered in silence, 
silenced by a culture that doesn't trust women, that questions 
their competence, that is suspicious of their motives, that 
perceives them as weak and unreliable.
    But their voices will never again be silenced. When our 
service members pledged their lives to defend our Nation, when 
their parents, brothers, sisters, loved ones entrust their 
child, their sister, their friend to the military, it should be 
with the comfort that they will not be sexually harassed, 
demeaned, raped, or brutally murdered by one of their own.
    Specialist Guillen's death will not be in vain. By now you 
know the story. Specialist Guillen was murdered in an arms room 
on Fort Hood on April 22nd, 2020. For her family and loved 
ones, there is the memory of an outstanding young soldier and 
the terrible belief that she had been sexually harassed by 
someone in her chain of command.
    After Specialist Guillen's sister reported that Specialist 
Guillen was sexually harassed but afraid to report for fear of 
retaliation, hundreds of current and former military members, 
women and men, shared their stories of sexual harassment, 
assault, and fears of retaliation under the social media 
#IAmVanessaGuillen and #IAmVanessa.
    Stories like Trista's, who was in her first week of tech 
school when she went to a birthday party for a fellow airman 
where she was drugged and sexually assaulted. Trista and her 
assailants all received the same punishment, a letter of 
reprimand for underage drinking.
    Stories like Crystal's, who joined the Navy at age 19. On 
her first deployment she was repeatedly catcalled. When Crystal 
reported the sexual harassment to a SHARP [Sexual Harassment/
Assault Response and Prevention program] official, she asked 
that it be kept confidential. But her request was not honored. 
After the SHARP told one of her supervisors, the harassment got 
worse and her commander told Crystal that she needed to, quote, 
``grow up.''
    But the abuse didn't stop and instead it turned physical. 
The SHARP official discouraged her from reporting it, saying 
that she should ask herself is it worth it. Crystal reported 
the assault anyway, but her assailants were given a slap on the 
wrist and one was even promoted.
    And stories like Tyler's, who was an ordnance Marine and 
newly open about his sexuality. A respected staff sergeant 
would tease him about it in front of other Marines but also 
offered to serve as his mentor.
    This mentorship continued until the staff sergeant sexually 
assaulted Tyler. Tyler confided in a fellow Marine, who 
suggested that Tyler keep his mouth shut about the incident 
because he thought the leadership would defend the staff 
sergeant while Tyler's career would be cut short.
    Tyler took the advice, kept silent and, ultimately, 
transferred to the Army.
    These stories and the thousands more provided the catalyst 
for grass roots movements combating sexual harassment and 
assault in the military to spring up across social media.
    Rallies and vigils were held in Specialist Guillen's name 
to promote awareness and demand reform.
    The Coast Guard is outside this committee's jurisdiction, 
but the cultural rot is the same. Recently, Sara Faulkner, the 
Coast Guard's first female elite rescue swimmer, spoke out 
against the extreme hostility and debasing abuse she endured 
throughout her distinguished career of some 20 years.
    She has also become a rallying cry for other women and men 
in the Coast Guard as dozens more have come forward to share 
their stories of harassment and assault despite Coast Guard 
leadership pressuring them not to speak out or even post 
support online for Sara and her colleagues, who were also 
interviewed in the McClatchy five-part investigative series 
that was printed recently in 29 daily newspapers in 14 States.
    Service members everywhere have bravely raised their voices 
to demand accountability, to call out their perpetrators and 
demand change now. Their voices are a warning to those who deny 
the problem, who glorify a culture not of honor, duty, and 
respect but a culture imbued with misogyny and reticence to 
change.
    And this is my warning. Sexual harassment, sexual assault, 
retaliation are never acceptable. Find solutions, fix problems, 
get out of the way, because, as John Lewis would call us to do, 
then get in the way.
    We will not continue to lose soldiers, sailors, airmen, and 
Marines because of the sexual harassment is one of the ``most 
pervasive and degrading facts of military life,'' unquote.
    Now, this is a quote from a female service member in a 
story in the Washington Post in 1980. That was 40 years ago. 
Little has changed in those 40 years except we have thrown a 
lot of money at this problem. I estimate it is close to billion 
dollars now, and what do we have to show for it?
    Well, we are going to explore that today. I have spent 10 
years on this issue. I don't take any pride in the numbers 
going down or going up because, frankly, not much has changed. 
For all that we have done, not much has changed. We haven't 
fixed it, and until we get very serious about this, nothing is 
going to change.
    I want to thank the panels that are here today and we will 
be hearing from you shortly. Before we introduce the first 
panel, let me introduce Ranking Member Kelly for his opening 
remarks.
    [The prepared statement of Ms. Speier can be found in the 
Appendix on page 47.]

     STATEMENT OF HON. TRENT KELLY, A REPRESENTATIVE FROM 
MISSISSIPPI, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Kelly. Thank you, Chairwoman Speier, and thank you for 
holding this important hearing on this important topic today.
    Thank you to our panelists today for coming in and sharing 
your findings. I think it is vitally important that we 
understand completely any positive or negative trends across 
DOD [Department of Defense] and down at Fort Hood and I think 
both panels today will help us get perspective on that.
    Sexual harassment is a scourge across society, rooted in 
ignorance and disrespect that has no place in our military. 
When young women put up their hand and swear the oath to 
protect our Constitution and country, they do it with the 
understanding, belief that they protect us and that we will 
protect them.
    We will protect their dignity, honor their sacrifice, 
recognize and defend their professionalism. Sexual harassment, 
like any exploitation or maltreatment, undermines that 
commitment and dishonors the sacrifices they make for each and 
every one of us in this Nation.
    When I was a company battalion brigade commander in the 
Army, I dealt with sexual harassment in my formations and it 
pained me to see all too often young female soldiers 
disrespected and sometimes exploited just because of their 
gender.
    I learned that the only way to counter this insidious 
threat was quick and decisive action at every level in the 
chain of command and fighting to establish a culture of 
intolerance for sexual harassment.
    Sexual harassment demeans the service of these victims who 
are more professional, capable, and committed than those who 
seek to victimize them. And while true that sexual harassment 
is a societal problem, that doesn't mean we can accept any 
lesser levels of harassment in the military and call it a 
victory.
    The military is better than that, grounded in common values 
that have no place for harassment, disrespect, or exploitation 
of other service members or anyone outside of the service, for 
that matter.
    Any level of sexual harassment is unacceptable. Reporting 
may be trending favorably and that is vitally important so 
leaders can illuminate and eradicate problems, and prevention 
and response may be improving.
    But any level of harassment is too much. We need to find 
creative ways for educating and empowering leaders at all 
levels and our most valuable--vulnerable populations of service 
members to shape culture of intolerance and set conditions for 
effective prevention and response at all levels.
    I am particularly interested in hearing from our panelists 
any ideas for how we can make that happen, how we can make 
institutional change across DOD because our service members 
deserve our full attention and every effort we can muster to 
counter the corrosive impact of any level of sexual harassment.
    I think it has to be personal. It has to be not in my Army, 
not in my Navy, not in my Coast Guard, which we don't have but 
it is still--not in my Air Force, not in my Marine Corps.
    That has got to permeate through every senior leader, every 
senior noncommissioned officer from the sergeant major of each 
of those services on down, and we have to make sure that we 
won't tolerate it from anyone. Not in my Army. Not in my DOD.
    Thank you again to our panelists. I look forward to a 
productive discussion today.
    Thanks again, Chairwoman Speier, for calling this hearing, 
and with that, I yield back.
    Ms. Speier. Thank you, Mr. Kelly.
    Each witness will have the opportunity to present his or 
her testimony and each member will have an opportunity to 
question the witnesses for 5 minutes.
    We respectfully ask the witnesses to summarize their 
testimony in 5 minutes or less. Your written comments and 
statements will be made part of the hearing record.
    I ask unanimous consent that non-subcommittee members be 
allowed to participate and ask questions after the subcommittee 
members have had the opportunity to ask questions.
    Without objection, so ordered.
    There are also Members of the House who are here who are 
not members of the Armed Services Committee. I would ask that 
they too have the opportunity to ask questions after the 
subcommittee members.
    Without objection, so ordered.
    Let me now welcome our first panel. Dr. Nate Galbreath, the 
Deputy Director of Sexual Assault Prevention and Response 
Office, SAPRO, at the U.S. Department of Defense.
    And we will then hear from Colonel Patrick Wempe--excuse 
me, Wempe--Command Inspector General, U.S. Armed Forces 
Command, FORSCOM.
    Thank you very much. You may begin.

 STATEMENT OF DR. NATHAN W. GALBREATH, DEPUTY DIRECTOR, SEXUAL 
  ASSAULT PREVENTION AND RESPONSE OFFICE, U.S. DEPARTMENT OF 
                            DEFENSE

    Dr. Galbreath. Madam Chair Speier, Ranking Member Kelly, 
members of the subcommittee and other Members, good morning. I 
appreciate the opportunity to appear before you today.
    For the last three decades, I have committed my life to 
supporting and caring for child victims and adult victims of 
violent crime. Since 2007, my efforts have focused on 
prevention and response to sexual assault.
    I wish that circumstances were different and that we were 
not here to discuss the loss of a service member, a soldier, a 
daughter.
    Even with my 30 years investigating violent crime, 
supporting victims, and counseling the wounded, nothing 
prepares one for situations like this. The murder of Specialist 
Vanessa Guillen has touched us all in some way.
    But no one feels the loss more than her family. I can only 
hope that the groundswell of support and love and compassion 
and even inspiration that has come from--about in the last few 
weeks in Vanessa's name can bring some comfort for those that 
loved and knew her.
    Nadie deberia sufrir lo que esta familia ha sufrido.
    Which, for the record, means that no one should suffer what 
this family has suffered.
    My organization, the Department of Defense Sexual Assault 
Prevention and Response Office, or SAPRO, establishes policy 
and conducts oversight on efforts to assist victims of sexual 
assault, encourage greater reporting, empower survivors to 
recover, and prevent the crime.
    While harassment policy, criminal investigation, and the 
military justice system fall outside my portfolio, we are 
keenly aware of how these issues play a critical role in our 
work to prevent and respond to sexual assault and to allow 
those who choose to make a report to do so without fear of 
retaliation.
    Although more work remains, many of our efforts have 
resulted in certain progress. As many of you know, the 
Department has two key metrics in the sexual assault program.
    First, estimated prevalence, or how often the crime occurs, 
is a number we want to go down. And second, the number of 
reports we want to go up, which means that more victims are 
coming forward to connect with care and support services as 
well as aid our efforts to hold offenders appropriately 
accountable.
    The data tells us that the estimated prevalence rates of 
sexual assault in the Department of Defense have decreased by 
over a third in the past 14 years and reporting of sexual 
assault is 4 times what it was in 2006.
    However, in our most recent Active Duty survey in 2018 we 
saw an increase in the prevalence of sexual assault for women. 
In addition, in that year, about 24 percent of women and 6 
percent of men on Active Duty indicated experiencing behavior 
consistent with sexual harassment in the year before being 
surveyed.
    We know we must do more. Fear of retaliation complicates 
and degrades our efforts to encourage greater reporting of 
misconduct and connects service members with restorative care.
    While not all behaviors perceived to be retaliatory by 
someone constitute retaliation that is actionable, all 
behaviors, actionable or not, gravely undermine our efforts in 
this space and are incongruent with our expectations for 
dignity and respect.
    To be blunt, such behaviors are absolutely unacceptable and 
have no place in a military that is striving for greater 
dignity, respect, and inclusion for all.
    In sum, achieving and sustaining progress requires 
continuous institutional examination, reflection, and 
evolution. We acknowledge the gap between where we are now and 
where the Department desires to be.
    We are committed to working towards lasting impactful 
cultural change. Again, thank you for your commitment and 
support to the men and women who serve our Nation and I look 
forward to your questions.
    [The prepared statement of Dr. Galbreath can be found in 
the Appendix on page 50.]
    Ms. Speier. Colonel Wempe.

   STATEMENT OF COL PATRICK J. WEMPE, USA, COMMAND INSPECTOR 
           GENERAL, UNITED STATES ARMY FORCES COMMAND

    Colonel Wempe. Madam Chair, Ranking Member Kelly, and 
distinguished members of the subcommittee, good morning.
    As the Inspector General for Army Forces Command, or 
FORSCOM, I appreciate the invitation to share information and 
insights from our inspection of the SHARP program and command 
climate conducted at Fort Hood, Texas, from June 29th to July 
3rd, 2020.
    Let me begin by expressing my sincerest condolences to the 
Guillen family. As a soldier and as a father, I cannot fathom 
the acute sorrow and grief that they are feeling over the loss 
of their daughter and their sister.
    What happened to Vanessa is tragic and should never happen 
to a daughter, a sister, or to a soldier. You have my profound 
sympathy.
    Our IG [inspector general] team serves as the eyes and ears 
of our commanding general, General Michael Garrett. To meet 
these expectations, we interact with members of the FORSCOM 
community in a variety of ways, at all levels, and on myriad 
topics.
    In our role as inspectors, we look at our organizations and 
programs to assess them against existing guidance. We also 
assess organizational climate to identify trends and systemic 
factors affecting our units and our people.
    Our assessments inform FORSCOM leader actions and decision 
making. On June 27th, 2020, General Garrett directed me to lead 
an inspection of the SHARP program and command climate at Fort 
Hood.
    General Garrett's intent was consistent with this type of 
short notice inspection to as quickly and accurately as 
possible identify any critical issues, to help Fort Hood 
leaders understand the strengths and weaknesses of their SHARP 
program and the institutional environment--excuse me, 
installation environment--and to recommend specific actions to 
make improvements.
    Six personnel from the FORSCOM IG conducted the inspection, 
augmented by a SHARP trainer and a special victim counsel from 
18th Airborne Corps at Fort Bragg.
    Our inspection methodology included a written survey of 
over 225 soldiers from 12 battalions and 6 brigades. We 
conducted 14 small group sensing sessions and command team 
interviews with 4 battalions in 2 brigades, gathering inputs 
from nearly 200 soldiers and leaders.
    Additionally, we conducted 16 sessions with our program 
personnel from company to corps level. In all, we had touch 
points with nearly 450 personnel from across Fort Hood.
    Our inspection was not able to fully incorporate Specialist 
Guillen's unit, the 3rd Cavalry Regiment [3CR]. We were 
scheduled to complete the inspection of the unit on July 1st. 
However, the tragic developments in the Specialist Guillen case 
the evening prior and very early that morning caused us to 
reconsider our plan.
    I advised, and General Garrett concurred, that due to those 
developments' impacts on the soldiers of the 3CR, we should not 
complete the inspection of the unit at that time.
    Though we believe our findings reflect the SHARP program 
and command climate across Fort Hood, we acknowledge that 
conditions within the 3CR could differ somewhat from those 
observed for the rest of the post.
    Therefore, General Garrett directed that our team return to 
Fort Hood on July 27th and 28th to complete our inspection of 
the 3CR. Our team, led this time by my deputy and our IG 
sergeant major, is returning from Fort Hood today and will 
continue the analysis of the collected data upon their return.
    At Fort Hood, we observed the SHARP program needing to 
improve in certain areas but one which units generally execute 
the standard.
    We observed consistent demonstration of program knowledge 
and awareness of reporting procedures. Importantly, most 
soldiers said they would report if sexually harassed. Most 
would report if sexually assaulted and nearly all said that 
leaders take reports of sexual harassment and assaults 
seriously.
    Our team did identify areas needing improvement. A few 
soldiers indicated a hesitancy to report SHARP incidents for 
several disparate reasons.
    Some soldiers expressed the junior leaders in particular 
lacked the practical experience to respond to a sexual 
harassment or assault incident. Extended hiring timelines for 
new SHARP program personnel can result in episodically unfilled 
positions.
    Finally, some soldiers indicated that the SHARP training 
they receive is repetitious and unimaginative. Our team made 
several recommendations to improve the SHARP program and 
reinforce soldiers' trust in the process and in the chain of 
command. Fort Hood leaders were receptive and committed to 
making the necessary changes to address identified shortfalls.
    In conclusion, no single inspection can be definitive. We 
believe our inspection results provide an accurate assessment 
of the SHARP program and climate at Fort Hood.
    While differences may exist in individual units, Fort Hood, 
overall, is meeting the standards prescribed by Army 
regulations and policies, and the FORSCOM team is committed to 
improvements.
    Again, I appreciate the subcommittee's invitation to appear 
today and I look forward to your questions.
    [The prepared statement of Colonel Wempe can be found in 
the Appendix on page 59.]
    Ms. Speier. Thank you, Colonel.
    I yield myself 5 minutes.
    Dr. Galbreath, we have spent many, many hours together over 
the last 8 or 10 years. I have a great deal of respect for you. 
I am deeply troubled, however, by the statement you made in 
your prepared remarks in which you said estimated prevalence 
rates of sexual assault in the Department of Defense have 
decreased by over one-third in the past 14 years.
    So I pulled the figures. In fiscal year 2002, for service 
women the prevalence rate was 24 percent. In 2006, the year you 
quoted it was 34 percent. In 2010, it was 21 percent. In 2014, 
it was 21.4 percent. In 2016, it was 21.4 percent. In 2018, it 
was 24.2 percent.
    So if you look at the data, it hasn't gotten better. You, I 
fear, plucked this high-water mark to make the case that 
somehow we are doing better when, in fact, we aren't doing any 
better.
    Would you like to comment on that?
    Dr. Galbreath. Yes, ma'am.
    I would agree with you that the rates that you quoted for 
sexual harassment have not changed. The data that I was citing 
in my prepared statement were for rates of sexual assault over 
the past 14 years and we have seen decreases in the prevalence 
of those.
    But you are absolutely right, there is no decrease in the 
prevalence of sexual harassment that we have seen sustained 
over time.
    Ms. Speier. And you are saying if I went back to look at 
the sexual assault data, we are going to see--we are not going 
to see a similar listing of data that it has dramatically 
decreased?
    Dr. Galbreath. It has decreased, ma'am. Yes.
    Ms. Speier. All right. I am going to look that up and we 
will----
    Dr. Galbreath. Yes, please.
    Ms. Speier [continuing]. Before the hearing is over we will 
get back to it.
    So the inspection at Fort Hood found that survey 
respondents did not trust their immediate supervisors to handle 
a sexual harassment or sexual assault incident.
    Junior supervisors also reported that they themselves did 
not feel equipped to handle an incident, despite training. Your 
report also indicates that we need to create a focus on this. 
What do we need to do?
    Dr. Galbreath. Everyone has to understand the message that 
sexual assault, sexual harassment aren't tolerated. But it's 
more than that.
    We are not born with the skills to necessarily understand 
what is acceptable and what is not acceptable when we deal with 
people on an everyday basis. Leaders aren't necessarily born 
with these skills and followers aren't necessarily born with 
these skills to be able to confront people productively but yet 
have rational discussions about what is offensive to them. We 
bring people in from the service from a wide variety of 
backgrounds.
    So for that purpose, leaders absolutely need the tools to 
be able to detect what problems that they have in their units, 
and through that we have been revising our climate surveys to 
help them really identify those topics that are challenging for 
leaders and to move the needle.
    In addition to that, our junior supervisors, our newest 
people who see our folks at greatest risk for sexual assault 
and sexual harassment every day, they also need those skills to 
be able to understand what sexual harassment looks like, how to 
shut it down, and how to encourage everyone to participate in a 
unit that is at--then grow respect and dignity and inclusion.
    In addition to that, we have to----
    Ms. Speier. Actually, Doctor, I am going to have to----
    Dr. Galbreath. Yes, ma'am.
    Ms. Speier [continuing]. Leave it there because I would 
like to ask a question of Colonel Wempe.
    Colonel, we talked last night and you indicated to me that 
you had these listening sessions and talked to over 223 service 
members. Is that correct?
    Colonel Wempe. Yes, ma'am.
    Ms. Speier. And the service members were mixed in terms of 
gender, correct?
    Colonel Wempe. That is correct, Madam Chair.
    Ms. Speier. So as we said last night, to get a real fulsome 
evaluation would require separating out the women so they could 
talk with a sense of ability to talk freely without having it 
create retaliatory actions.
    So you recognize that that might have been a better 
purpose, a better way of handling it?
    Colonel Wempe. Madam Chair, I certainly acknowledge the 
point. What gave us confidence that we were getting good inputs 
from all soldiers in those sensing sessions was the very good 
alignment with the results we got from the anonymous surveys, 
which were entirely anonymous.
    And so the results were consistent on trusting the chain of 
command and willingness to report between the anonymous surveys 
and the information that we were hearing soldiers in sensing 
sessions.
    And so I absolutely acknowledge the point of the value of 
the gender-specific sensing sessions. In this case, there was 
good correlation between the subjective information we got and 
the survey information.
    Ms. Speier. Well, you also said that 18 of the 52 women 
surveyed--more than a third--reported being sexually harassed. 
But why doesn't your data report include the data on any 
gender-specific way so that we can look at how female soldiers 
feel as compared to male soldiers?
    Colonel Wempe. The inspection report that we provided was 
actually provided to General Garrett, which is our norm. We 
provide it to our commander, who directs us to do the 
inspections.
    And in this case, the inspection was really focused on the 
broader climate at Fort Hood and their execution of the SHARP 
program at Fort Hood, and we needed to provide him some answers 
fairly quickly so he would know if there was an immediate 
problem that needed to be addressed immediately at Fort Hood.
    And so our inspection report really focused on the major 
points that we thought were important--the level of trust in 
their leadership, which was high--94 percent, based on the 
survey--willingness to report, which, although still not 100 
percent and we still have challenges there, the willingness to 
report both assault and harassment incidents was also high, 86 
percent and 87 percent, respectively.
    And so based on the survey we did and the subjective 
information and anecdotal information that we got from soldiers 
that we talked to them, we felt that that, for the purposes of 
this inspection, that immediate initial look at Fort Hood and 
their program, we felt that that answered the immediate 
questions that needed to be answered. We don't necessarily 
promote our inspection report as the definitive answer at Fort 
Hood----
    Ms. Speier. All right. Thank you, Colonel. My time has 
expired.
    Ranking Member Kelly.
    Mr. Kelly. Thank you again, Chairwoman Speier.
    I want to talk just a little bit--it sounds like that there 
is a lot of confidence at Fort Hood in leaders who are at the 
company and higher level and that the--any amount of 
dissatisfaction is with those at the lieutenant platoon level 
or at squad level or at some lower level--the junior leader.
    I think it's important for people to understand that in 
perspective. A second lieutenant probably has 6 months of 
experience in the Army or in the Navy--an ensign, in that case.
    But they are coming from a culture, and we like to always 
focus on our service academies but I would say that probably 80 
percent of our officers are commissioned from services outside 
of the academy, if not a greater number, and most of them come 
from colleges and universities and ROTC [Reserve Officers' 
Training Corps]. There are exceptions. You have some coming 
from OCS [Officer Candidate School].
    I would also state that most of the issues are with 
soldiers who have been in for less than 2 years. So they have 
brought a culture with them.
    I see our senior leadership--that is General McConville, 
General Garrett, who I know and is a superb leader--I see a 
much greater focus across DOD from the senior level leadership 
where they are no longer giving lip service.
    Do you see that, Colonel Wempe or Dr. Galbreath, where our 
senior leadership--our senior enlisted leaders--are pushing 
down we will not tolerate? Do you see that in application?
    Dr. Galbreath. As a matter of fact, I do. I regularly train 
individuals in the ranks of O-5 to O-6, E-7 to E-9, and also 
senior GS [General Schedule] civilians ranks 13--GS-13 to -15. 
And the changes that I have seen over the past 10 years are 
substantive, that the fluency, their understanding of the 
problem of sexual assault has increased substantially.
    They could probably use a little bit more help with sexual 
harassment, understanding what to do there. But yes, I have 
seen a great change.
    Mr. Kelly. Which brings me to my next point. We need to do 
a better job of the PMSes--the primary military specialists--or 
the colonel who is in charge of our ROTC programs.
    We need to do a better job in our selection of drill 
instructors or people who are responsible for these young men 
and women who come into our service.
    I am telling you, we have got to teach it from day one. We 
have got to let them know that it will not be tolerated in our 
Army. So I just ask that you refocus your efforts because our 
problems have changed over time.
    I am not saying that they have gone away. They have 
changed. They went from the senior leadership endorsing 
Tailhook, other examples, to now it's at the junior--the people 
coming in bringing their culture with them.
    And I will say the only way to eradicate that problem is to 
send PMSes to our colleges and universities, which most people 
come, is to at basic training our drill instructors who teach 
from day one.
    That means more women. That means more minorities. That 
means in those positions. That used to be looked at if you got 
a PMS that was not a good assignment. It may be the end of your 
career.
    We need to change that dynamic so that when you get a PMS 
job it means the senior leadership of the Army trusts you the 
most to bring in our most crucial asset, our individuals.
    Tell me what you think about that, Colonel Wempe.
    Colonel Wempe. Congressman, I will speak to what we saw in 
terms of awareness and the focus on the issue. I will speak to 
what we saw at Fort Hood during the inspection.
    As I mentioned, the trust as expressed to us both through 
survey and through the actual discussions, the trust in the 
leaders was high.
    The awareness and the emphasis on the challenge of SHARP 
and the problems that presented, that awareness was very high. 
Soldiers were very conversant, very aware of the SHARP program 
that processes their opportunities to report and their 
mechanisms to report.
    So what we took away from that was that there was a 
priority on SHARP at Fort Hood. The concern as expressed to us 
by soldiers with those junior level leaders as they expressed 
it to us was not one of trust per se.
    It was that they trusted their leaders to take it seriously 
but those junior leaders may not have either the life 
experience or the military experience to deal with the 
situation as it was presented to them.
    And so our recommendation to get at that issue as expressed 
to us was really to focus some training on that first line 
supervisor or that junior leader, and the DOD initiative sounds 
like it is addressing that challenge.
    Mr. Kelly. And Colonel Wempe, just very quickly with the 
few seconds that I have left, what that means is we have the 
greatest NCO [noncommissioned officer] corps in the world.
    We are the greatest military in the world because of our 
noncommissioned officers, and I can tell you an E6 has adequate 
experience and life experiences.
    So maybe we need to shift the focus and we need to train 
sergeants. We need to train first sergeants, platoon sergeants, 
or the equivalent in the Navy. Those guys have the life 
experience and they are at the levels where they can impact 
that.
    They have got to trust their squad leaders, platoon 
leaders, and platoon sergeants and on up.
    And with that, Madam Chair, I yield back.
    Ms. Speier. Thank you, Mr. Kelly.
    Mrs. Davis, you are recognized for 5 minutes.
    Mrs. Davis. Thank you, Madam Chair, and I express as well 
as my colleagues condolences to the family of Specialist 
Guillen, and others.
    You know, I have been working with this as well for many, 
many years, and I remember some of the initial work that we did 
and especially trying to create what became the special victims 
counsel and advocate, and that seemed to be something that, if 
nothing else, gave the victims the confidence that there was 
somebody there for them, because I think what we heard was they 
felt extremely alone. Nobody would listen and they really 
didn't believe that anybody cared.
    So that made some difference. But we are still struggling, 
aren't we? And we were often told, you know, you changed 9, you 
know, major laws in regard to this, or 12. Whatever the number 
was people told us, you know, wait, sit back. You know, let 
us--let this change things. And we are still--we are still at 
this.
    You know, I remember--and I checked the date again because 
it was June 14th of 2013 when General Morrison in Australia 
told people, if you have got some sexist problems or issues, 
get out and get out now.
    And that resonated with us here too because we believed 
that maybe the messages are not strong enough from our leaders 
and, quite honestly, we didn't hear that, although I have to 
say that I had great respect for many of the generals that we 
were working with at that time.
    But you are citing the junior level folks. So that means we 
have got to look at the promotions. You know, what is the 
climate under which they were working that they created in 
their units.
    And I know we have looked at this. We have talked about it. 
But somehow or other, that is not getting through. But I also 
checked back to see, okay, so what is happening with Australia 
today.
    Are they doing a lot better than we are? And if you want to 
check that article, they are not, actually, and they are 
suggesting that the media is still acting on the belief that, 
quote, ``boys will be boys'' and that the system is not going 
to change very much.
    I hope we are better than that. But I worry that as we 
continue to come back that is not always the case. I am pleased 
that you cited the fact that women are saying that they have 
more trust in some of their leaders and leaders that have gone 
further in the services, and I have heard that as well, 
especially in the Navy, because I have asked it a lot.
    But I have always been concerned that somehow when it comes 
to promotions that we are not looking at the right things. We 
have got to do that. That is very important.
    So I wanted to go back and just, very quickly, because I 
know my time is running out. Colonel Wempe, are you planning to 
go back to Fort Hood and conduct an inspection of Specialist 
Guillen's unit, the 3rd Cavalry Regiment, as well? Do we need 
to know more about that?
    Colonel Wempe. Congresswoman, we actually did send a team 
back this week and in the last 2 days they have been inspecting 
the 3CR unit--Specialist Guillen's unit--because we weren't 
able to inspect it when we were down there the first time in 
late June, early July.
    I think you can appreciate in this forum, in particular, 
IGs operate by fairly strict regulations regarding the 
confidentiality that we receive, and we do that to protect 
soldiers and protect units because we need them to talk to us 
and we have to protect them when they do.
    So it wouldn't be appropriate to talk details about 3CR 
specifically today, or at least great details. But we did 
return and do the inspection the last 2 days.
    The initial feedback that I got from our inspection team 
led by my deputy, who is a very experienced IG, is that what 
they saw within 3CR was very well aligned with what we saw with 
the remainder of the post when we were down there the first 
time.
    Some slight variations in specific--in the way they 
answered it, but no significant variances from what we saw, and 
just as importantly, they felt like they had very transparent 
and honest input from the soldiers in the sensing sessions they 
did with them.
    Mrs. Davis. Okay. Thank you.
    My time is almost up. I was going to ask, and I am sure 
others will, about the AWOL [absent without leave] process and 
some specifics around that because we had concerns about that 
at the last hearing.
    Thank you very much.
    Ms. Speier. Mr. Bergman, you are recognized for 5 minutes.
    Mr. Bergman. Thank you, Madam Chair, and thanks for the 
hearing. Thanks for the subject, because the youth of our 
country is our future, period.
    I would like you to just take this question for the record, 
unless you know it right off the top of your head. What 
percentage of the age-eligible youth, young people, enlist or 
seek to enlist in the military today? What percentage? And if 
you don't have it, that is fine. Take it for the record.
    Dr. Galbreath. I am sorry, sir. I don't have that.
    Mr. Bergman. Good. Take it for the record, and with that, I 
yield the rest of my time to Mr. Turner.
    [The information referred to can be found in the Appendix 
on page 101.]
    Mr. Turner. Thank you. Thank you, Madam Chairman.
    When the story of Vanessa Guillen broke, my heart sank 
because, in my community 13 years ago, the story was very 
similar. Maria Lauterbach came up missing.
    Stories began to circulate of the sexual assault that she 
had reported. The accused became the primary suspect and her 
body was, ultimately, found in his back yard where he had 
murdered her and burned her body.
    In this instance, with Vanessa, my heart sank because, once 
again, the question arises has the military done anything 
wrong. In this instance with Maria Lauterbach, there were 
things that really went wrong that we knew needed to be 
addressed, and I think our oversight--and Colonel Wempe, it is 
so important in this investigation--that we need to look what 
has DOD done, what did we know, what were we not doing, and 
what did we not do correctly.
    It has been my honor to work with Congresswoman Susan Davis 
on this issue. As a result of Maria Lauterbach's death I got 
involved in this, worked with Susan Davis and others. We gave 
victims the ability to do an expedited transfer.
    We gave, as Congresswoman Davis was saying, victims their 
own counsel and even standing in court so the victims can have 
their own legal representation to guide them through this.
    We divided up our whole task into three categories.
    Prevention--how do we make certain that we lessen sexual 
assault and sexual harassment.
    Protection--how do we ensure that victims themselves have 
the tools that they need.
    And then prosecution--ensuring that those who perpetrate 
these crimes are held accountable.
    Now, surely, we can tell that we are falling short.
    Dr. Galbreath, I have one question for you to start, and 
that is I fear that when we make it a gender issue that we 
actually lessen the overall impact of sexual assault on men in 
the military.
    Now, you gave the percentages and it is my understanding, 
Dr. Galbreath, that actually more men are assaulted than women.
    Dr. Galbreath. Sir, that is--that was the case up through 
2016. 2018 was the first year that we saw fewer men sexually 
assaulted, as far as numbers go, than women.
    Mr. Turner. What I find interesting about the percentages 
and the extent is that when we talk about afraid to report, 
there is afraid to report in the system and retaliation.
    Then there is also cultural. And so what are we doing to 
address this issue of assuring that people will be--feel that 
they can come forward? When Congresswoman Davis and I were at 
the Marine Commandant's residence, he was telling us what he 
was doing on sexual assault.
    But there was an officer--female--at the table who, during 
the discussion, said she herself would feel afraid to report. 
And that, of course, means that everybody is a victim, right.
    Even if you are not a victim of sexual assault but if you 
believe that if you are assaulted that you--that it is not 
worth it to come forward, that you are still a victim of the 
system.
    Dr. Galbreath, tell me what you are doing in this regard?
    Dr. Galbreath. Absolutely. We are making it very clear from 
the very highest levels of leadership on down that encouraging 
people to come forward and report is much more than just 
saying, make a report.
    We have to have systems that protect the confidentiality of 
people and with restricted reporting that is something that we 
did that actually brings in many, many more people than we 
ever--than we ever recognized would come in to make a report 
just by offering them that confidential ability.
    In addition to that, we have to have highly trained people 
that when people do walk in the door, they are heard, they are 
respected, and they are assisted in the way that they want to.
    And then we have to have services that appeal to people, 
that really do make a difference in their lives.
    Mr. Turner. With respect to harassment and the increase in 
reporting, as we try to shift our culture, wouldn't we want 
more reporting?
    Wouldn't we want people to be more critical of the 
environment that they are working in so that we have the 
ability for intervention because harassment can so easily 
translate into encouraging an environment that permits sexual 
assault?
    Dr. Galbreath. Yes, sir. The policies that we put in place 
for sexual assault in 2006 quadrupled the number of service 
members that make a report every year now.
    That being said, we could do the same for sexual 
harassment.
    Mr. Turner. Thank you, Madam Chair.
    Ms. Speier. I thank the gentleman.
    I really think that being accurate is really important on 
this issue. So I have had the staff give me the stats on sexual 
assault in the military since 2006.
    In 2006, it was 6.8 percent for women. In 2010, it was 4.4 
percent. In 2012, it was 6.1 percent. In 2014, it was 4.9 
percent. In 2016, it was 4.3 percent. In 2018, it was 6.2 
percent.
    So it was 6.8 percent in 2006. It was 6.2 percent in 2018. 
That is not a third less. If what you are doing is combining 
women and men in the military to get that reduction of one-
third, I don't think that is fair.
    Now, for men it went from 1.8 percent to .7 of a percent 
from 2006 to 2018. I think it is really important to be 
accurate and fair and not let the stats twist the truth.
    With that, Mr. Cisneros, you are next.
    Mr. Cisneros. Thank you, Madam Chair, and I thank our panel 
for being here today.
    I, too, was very disturbed by Vanessa Guillen's death, 
having lost a sister at a young age as well. It is something 
that is devastating for a family, and with that, I will get 
right to my questions.
    Reportedly, for sexual assault and sexual harassment, the 
number of court martials and NJPs [non-judicial punishments] 
stayed about steady for 2018 and 2019 while the numbers of 
administrative actions rose, indicating, in some instances, 
commanders were choosing to either slap perpetrators on the 
wrist or unload them from the service rather than take 
appropriate disciplinary action.
    What can we do to ensure that commanders are properly 
investigating and responding to sexual assault and sexual 
harassment allegations?
    Dr. Galbreath. Sir, for sexual assault, no commanders are 
allowed to investigate that crime. All allegations of sexual 
assault are required to be provided to the military criminal 
investigative organizations--OSI [Office of Special 
Investigations], CID [Army Criminal Investigation Command], and 
NCIS [Naval Criminal Investigative Service]--and that has been 
the Department's policy since about 2006.
    For sexual harassment, when formal reports are made you are 
correct that investigations are conducted at the command level.
    I think the best thing that has happened with that, though, 
is to get--to ensure that the general court martial convening 
authority over that individual command is notified of that 
formal harassment complaint, which means that it is in the 
light of day and other people's eyes are on it than just the 
command.
    Mr. Cisneros. So reports that are restricted where 
survivors confidentially disclose an assault without stating--
without starting an official investigation saw a 17 percent 
increase from last year with 2,126 reports.
    Do you feel that the increase in restricted reports 
demonstrates a lack of faith in the chain of command?
    Dr. Galbreath. Actually, sir, I believe it's the exact 
opposite. Our restricted reporters come forward because they 
see it as a viable way to protect their confidentiality, and as 
a matter of fact, we believe that any report is a good report 
from the standpoint of allowing our service members to get the 
care and the help that they need.
    Mr. Cisneros. So if they had faith in the chain of command, 
why wouldn't they make an official report?
    Dr. Galbreath. Sir, our policy recognizes that reporting a 
sexual assault is a deeply personal decision, and so we empower 
everyone to make the decision that is right for them.
    We have got to respect that some--for some people making a 
report will never be right. But for others, we give them every 
opportunity to come forward and, in addition to that, as a 
restricted reporter you have the opportunity to convert your 
report to unrestricted and participate. About a quarter of 
people do that every year.
    In addition to that, we have also employed the Catch a 
Serial Offender Program for restricted reporters, which allows 
them to submit the name of their offender into a system and if 
there is a match then we contact them back and see if they 
would like to participate in the justice system.
    Mr. Cisneros. So sexual assault appears to be more 
prevalent among junior service members relatively new to the 
military.
    So what preventive efforts are in place to prepare leaders 
at all levels to better reach our youngest service members who 
are most at risk? And I believe that is part of what Colonel 
Wempe was talking about. But how are we reaching our young 
junior personnel who are new to the military and to let them 
know that this is not acceptable?
    Dr. Galbreath. Absolutely.
    Sir, we have a variety of ways that we go after this issue. 
At first--first of all, within 14 days of you joining the 
military, you are informed about the sexual assault prevention 
response program. That is at basic training.
    Then when you go to your advanced school you get additional 
information about what is acceptable and what is not as far as 
behavior goes.
    In addition to that, we have taken a number of different 
efforts since May of 2019 to ensure that our junior leaders and 
our first-line supervisors will have the skill to be able to 
address this behavior when they see it and shut it down.
    In addition to that, we are also providing commanders with 
new revised climate surveys that allow them to detect and then 
take action on challenges within their unit to protect those 
folks that are junior.
    Mr. Cisneros. So is this training provided on an annual 
basis while they are at the commands?
    Dr. Galbreath. There is annual training, yes. Basic 
training is not annual. It is when you first come in.
    Mr. Cisneros. Well, I know. But it is why I am asking is 
there a refresher training done every year?
    Dr. Galbreath. Yes, sir.
    Mr. Cisneros. All right.
    So, look, we heard from Vanessa Guillen's family. We hear 
from so many other individuals that she came forward and told 
her family members, who she trusted, that she was being 
sexually assaulted and didn't feel comfortable reporting that 
to her chain of command, and that is not uncommon and we have 
heard that so many times here. We need to do something to 
change that.
    And with that, I yield back.
    Ms. Speier. I thank the gentleman.
    I, too, share your reluctance in embracing restricted 
reporting. I think it sends a message to the soldiers: don't 
rock the boat.
    Let us just give you the health care you need and let us 
move forward. Let us just put this behind us. So I really am 
not a fan of it, but it is in the system today.
    I now yield 5 minutes to Ms. Escobar.
    Ms. Escobar. Thank you, Madam Chairwoman, for another 
hearing about this issue. Thank you for your continued 
leadership and your partnership. I am very, very grateful for 
it.
    To our witnesses in our panel, thank you for being here. 
All of us have been shocked and horrified about the news of 
Vanessa Guillen and, once again, my sincerest condolences to 
her family.
    Briefly, Madam Chair, I ask unanimous consent to enter into 
the record two letters from the Texas legislature calling on 
the U.S. Congress to investigate Specialist Vanessa Guillen's 
tragic disappearance and produce findings with utmost 
transparency: the first from the Texas House Women's Health 
Caucus, the second from the Texas Senate Hispanic Caucus.
    Ms. Speier. Without objection, so ordered.
    [The information can be found in the Appendix beginning on 
page 93.]
    Ms. Escobar. Thank you, Madam Chair. I, too, have called on 
Congress for an investigation, along with our chairwoman.
    Gentleman, right after--as the chairwoman mentioned, right 
after the discovery of Vanessa Guillen's murder and as the 
brutal details became public, you saw women all over the 
country talking about their experiences on social media and on 
Zoom conversations.
    I had my own conversations at home, and one of--really, 
there is an alarming component of the conversation that I had 
with one soldier. She talked about the incredible frustration 
that she and her colleagues have in knowing that sexual 
assaults are not either fully investigated or there is not--
they feel that there is not justice attached to those 
investigations.
    And so she said, why bother reporting sexual harassment if 
the results with regard to sexual assault are so terrible, and 
she said, in fact that--she has been deployed and she said that 
she knew that there was, basically, a war outside the wire that 
she was prepared for but there was one inside the wire she was 
not prepared for, just for context.
    So, Colonel Wempe, I want to ask you specifically, the 
FORSCOM IG report indicates that most soldiers responded that 
they would report assaults, that 86 percent would report 
assaults.
    However, the same investigation shows that just 50 percent 
of those who were assaulted in the last year actually reported 
it.
    I didn't see that your recommendation addressed this issue. 
Why not? And also, how should DOD and SHARP address this 
disparity?
    Colonel Wempe. Congresswoman, if I could just make a point 
to clarify. What we did was an inspection rather than an 
investigation, which in the IG realm are two distinctly 
different things.
    So for the inspection that we did, it did indicate that 
only 50 percent of those that had been assaulted reported but, 
yet, 86 percent indicated that if they were reported--if they 
were assaulted they would report.
    And the--I think the statistic is a little bit misleading 
because it was such a small sample size for those that had been 
assaulted. There were four of that survey group that had been 
assaulted and two of those had reported.
    So it was a very small sample size, and because it was an 
anonymous survey we weren't able to dig into those cases 
specifically as to why or why not they didn't report.
    More broadly, and I think it is a very important that even 
though 86 percent in the case of sexual assault indicated that 
they would report and 87 percent indicated that they had 
reported if they had been a victim, and so we make some 
assessments based on that.
    That in no way discredits the story for the experience of 
an individual soldier because we know the incidents occur and 
we know that not everybody reports.
    So even though our assessments indicate the propensity to 
report is very high, that in no way detracts from those that 
choose not to report for whatever reason.
    In terms of that difference between a very high level of 
trust in command but a still high but lesser level of those 
willing to report, either harassment or assault, in the sensing 
sessions we really tried to understand why that was, why there 
would be that disparity between the trust level and willingness 
to report.
    And what we found--what soldiers told us, it broke down 
into a number of different reasons. Deeply personal decision 
that is being made by somebody who has experienced a 
significant event, and there wasn't any one reason of those 
that stood out to us as to why they would not report that they 
had experienced an incident.
    Ms. Escobar. Colonel, just super quickly, have any of the 
recommendations you made been adopted?
    Colonel Wempe. We had, Congresswoman. They are doing 
planning down there already in terms of how to implement 
particularly some of the training recommendations that we made.
    Additionally, some of the other programmatic 
recommendations that we made about the processing of new SHARP 
program personnel.
    Our team actually looked into that earlier this week while 
they were down there for the revisit, and it appears that 
they--they didn't see--our team did not see a specific reason 
for a backlog in the processing. It was just a process that is 
very deliberate and very, very careful about who ultimately 
goes into those SHARP program positions.
    Ms. Escobar. Colonel, I am out of time. Thank you so much.
    I yield back.
    Ms. Speier. Thank you, Ms. Escobar.
    Ms. Luria, you are recognized for 5 minutes.
    Mrs. Luria. Well, thank you, Madam Chair, and I would just 
like to start by saying that, you know, I entered the military 
in July 1st, 1993, and I feel like in all those years since 
then and in the 20 years I served very little has actually 
changed in what is happening.
    You talk over and over again about the programs you have 
implemented. I lived through that. I lived through those 
changes, the implementation, all of them.
    But I truly feel like we actually have to do something 
differently, and I applaud Chairwoman Speier for an effort that 
she put into this year's NDAA [National Defense Authorization 
Act] that Ms. Sherrill and I, also a Naval Academy graduate, 
supported and we would like to look at how that type of change 
of an independent prosecutor or something in addition to 
supplement, to help with this problem with the chain of 
command, can help with this situation in the future and 
people's ability to report.
    And I would like to yield the remainder of my time to Ms. 
Sherrill.
    Ms. Sherrill. Thank you so much, Congresswoman Luria. I 
couldn't agree more. It feels like many of the issues that I 
heard about in 1990 when I was 18 years old and entered the 
Academy we are still talking about today, and I would like to 
mention some things.
    I am going to have to head down to the floor after this so 
I do want to quickly say thank you so much to Ms. Del Gaudio 
for coming today. She is a member--she is from my State of New 
Jersey.
    She has stood up for women throughout New Jersey for many 
years now, and now I am proud that she has come to stand for 
women throughout the Nation. So thank you so much for coming 
today.
    Something that Chairwoman Speier said that has me very 
concerned is in your finding about 18 of the, roughly, 50 women 
reported being sexually harassed. Is that correct?
    Colonel Wempe. Yes, that is correct, Congresswoman.
    Ms. Sherrill. And you said that the majority of women in 
your survey would report this. They self--they told you they 
would report sexual harassment. Is that correct?
    Colonel Wempe. Yes, that is also correct.
    Ms. Sherrill. And so have there been reports from over one-
third of the women on the base that they have been sexually 
harassed? Is that what the reporting has told us?
    Colonel Wempe. Congresswoman, I would have to take that for 
the record. We did not look at the overall reporting 
percentages or prevalence at Fort Hood as part of our 
inspection. So I would have to take that for the record.
    [The information referred to can be found in the Appendix 
on page 101.]
    Ms. Sherrill. Could you please take that for the record? 
Because it occurs to me that that would be a good way to check 
your survey to determine if, in fact, that women are really 
feeling free to come forward and I would suggest that if over a 
third of the women on Fort Hood are reporting being sexually 
harassed that that is certainly a real concern of mine and 
something that really has to have further looking into.
    I also want to focus on the finding that the SHARP program 
at Fort Hood is operating to standard. Was that your finding?
    Colonel Wempe. Yes, it was.
    Ms. Sherrill. If that is true, it really leads to serious 
questions about the usefulness of the Army's standard itself.
    Given that if a SHARP program is operating at standard 
missed the sexual assault and eventual murder of a soldier at 
Fort Hood, the standard is flawed. So what steps are being 
taken by the Army to assess that standard itself and what 
changes would you recommend?
    Colonel Wempe. Congresswoman, our inspection did not look 
at the actual policies or regulations themselves. We strictly 
looked at the unit's ability and their level of execution 
against those standards.
    I would have to defer to others in terms of any initiatives 
or movements within the Army to change the standard itself.
    I do think, however, having said that, that we didn't look 
at the specific standards. If the intent of the policies and 
regulations is to maintain focus on the topic of SHARP and the 
prevention of incidents and the reporting of incidents, what we 
saw was a--in the units that we talked to we did see a lot of 
awareness of the topic, a lot of engagement and investment in 
that topic at all levels of the soldiers that we talked to, and 
of an absolute appreciation of the priority that needs to be 
placed on it.
    We did see that. So, in that respect, I think the intent of 
the standards as they pertain to soldiers and how they do SHARP 
I think what we saw at Fort Hood indicates that it was having a 
very good effect, notwithstanding the effect or the point 
that--the broader point that it may not be having the entire 
effect that we are looking for.
    Ms. Sherrill. I think maybe our measurements of good effect 
need to be adjusted, simply, you know, if we are seeing 
reporting of over a third of the women being sexually harassed, 
if we have a murder that took place on Fort Hood, I have grave, 
grave concerns about how we are measuring success in this 
instance and I think we are failing, quite frankly.
    So my time is up and I yield back. But thank you so much 
for your testimony today.
    Ms. Speier. I thank the gentlelady.
    Colonel, it is true that there is a SHARP program, that 
people know about the SHARP program. So you were able to check 
those boxes. But you also, I think, in your report indicated 
that the--is it the SHARP 360 program? Are you familiar with 
that? The one where they have an actual facility there. They 
create a bar, a motor pool, and act out.
    But that wasn't well known to any of the people that--or 
very few of the people that you actually interviewed. Is that 
correct?
    Colonel Wempe. Yes, that is correct, and we were not aware 
of it before we got down there. One of the SHARP program people 
that we interviewed on the first day mentioned it. Our team 
went and took a look and our team was very impressed with the 
platform for SHARP training that that facility provides.
    And the few soldiers that had gone through small group 
training at that facility spoke very, very well about the 
facility. But it is absolutely true it was not well known. Even 
the existence at the facility was not well known.
    Ms. Speier. All right. And the SHARP program is online, for 
the most part?
    Colonel Wempe. In terms of the regulations and the 
policies, what that requires of the units, yes. Yes, Madam 
Chair, it was online from what we saw.
    Ms. Speier. Thank you.
    Ms. Haaland, you are recognized for 5 minutes.
    Ms. Haaland. Madam Chair, thank you for convening today's 
hearing. As a mother, as an indigenous woman, and as a proud 
member of this committee, I am deeply saddened and disturbed to 
hear about the loss of Specialist Vanessa Guillen, and I 
understand I am not alone in feeling this way. I send my 
heartfelt condolences to Gloria and Mayra, Vanessa's mother and 
sister, to the men and women in our military communities, and 
our witnesses here today who are also grieving and searching 
for answers.
    I, too, wish that circumstances were different and that 
Congress could have done more sooner to address the pervasive 
climate of sexual harassment and assault in our military. I 
hope today's hearing will lead us down a relentless path toward 
swift military justice reforms, from my colleagues saying they 
have waited a long time for these things, and protections for 
all of our men and women who serve.
    Colonel Wempe, I understand the Inspector General's 
inspection at Fort Hood concluded the SHARP program is executed 
as prescribed and meets Army standards. Yet many military women 
have come forward to share their own personal stories of sexual 
harassment and of sexual assault. These women have shared 
they've been overlooked and silenced.
    How do you rectify your findings with the real, lived 
experiences of these women? And is there something that's being 
overlooked?
    Colonel Wempe. Congresswoman, the execution of the program 
to standard, sort of the programmatics of the SHARP program, 
that was one of the objectives that we looked at. And that was 
really focused on: are they doing the training, are they doing 
the training consistently, what is the level of awareness of 
soldiers of the SHARP program itself? And all of that was very 
strong from what we saw with the units that we inspected.
    Probably more critical for the question, may be the 
objective of our inspection that also looked at climate, 
because so much of the climate affects not just whether or not 
the incidents happened, but what happens after an incident 
happens. And so we put a lot of focus on that objective, the 
one of climate. And although it is true that both from the 
survey information and the subjective information we got from 
talking to soldiers, trust in the leaders to take it seriously 
was very high, trust in the willingness to report was also 
high, that doesn't preclude the experience of individual 
soldiers. And we know that incidents are still occurring. I 
mean, common sense says that, our survey indicated that, and 
certainly the DOD statistics indicate that.
    So we know that incidents are still occurring. We know that 
there is work to do, really focusing, I think, on that 16 or 17 
percent and why they are not reporting and how we can make it 
more comfortable or easier for them to report. I think that's 
very important so that we really understand the problem and its 
scope better than we do now.
    Ms. Haaland. I'm just curious, have you personally read any 
of the #MeToo military stories that are out there?
    Colonel Wempe. I am not on social media. I have not read 
them directly. I certainly read a lot of the press reporting 
about those stories that have been on social media.
    Ms. Haaland. #MeToo stories are very personal. They are 
from the women themselves. And I would encourage you to take a 
look at some of those because I think they would be very 
informative.
    Madam Chair, I yield.
    Ms. Speier. Thank you, Ms. Haaland.
    Mr. Crow, you are recognized for 5 minutes.
    Mr. Crow. Thank you, Chairwoman, for holding this really 
important hearing on a critical issue for our military and our 
young men and women.
    The military goes to great lengths to instill esprit de 
corps, to instill culture among its ranks. When I was a young 
enlisted soldier, my career started when I was in the enlisted 
ranks as a private, I remember going to basic training. And the 
amount of time that was spent learning knowledge; you were 
given this book and you are told to memorize the Army song, 
Army history, the great battles in American history. You 
memorize the ranks, the command structure. You know, it's a 
reflection of the priorities of the force where you spend your 
time--and instruction was broken down by the hour; you know, X 
number of hours on marksmanship, X number of hours on physical 
fitness--and where we spend our resources.
    So, with that in mind, I am concerned that our time and 
resources still do not adequately reflect the priority and the 
urgency of this issue.
    Dr. Galbreath, you said that within 14 days new recruits 
are informed about the program. And then when they go to their 
advanced training they are provided, quote, ``additional 
information'' about the program. So can you shed some 
additional light for me as to how many hours of instruction and 
how much time is spent for these new recruits, who get their 
first exposure to military culture and the priorities of our 
force, to instill in them how critical this issue is?
    Dr. Galbreath. I don't have that number on me, because this 
is a service equity that they all execute just a bit 
differently. But it is--once again, there is a substantial 
amount of time spent. I just don't know what it is per service.
    Mr. Crow. I would think you would want to know that. I 
mean, you are one of the top leaders in the program that's 
designed to instill accountability into our force. And I 
understand that there is some disparities, but this starts from 
day one. And, you know, I am dismayed, to say the least, that 
you don't know how much time and effort is spent instilling 
culture and priorities on our recruits from the first day they 
step off that bus, right? Because when you get yelled at by the 
drill sergeant, it's a reflection of the priorities of the 
force. But we are clearly not doing that with an issue of 
critical importance that goes to the esprit de corps, the 
values, the culture, and the morality of our military. So I 
want, for the record, to get that information from you, and I 
want to know that this will remain a priority.
    [The information referred to can be found in the Appendix 
on page 101.]
    Mr. Crow. Dr. Galbreath, can you tell me how many of the 
SHARP representatives throughout the force--I believe, at the 
GS level they start at the brigade level--how many of those are 
women?
    Dr. Galbreath. The vast majority of them are women. I don't 
have the exact percentage of what the gender breakdown is. 
But----
    Mr. Crow. So it's over 50 percent?
    Dr. Galbreath. That is my understanding.
    Mr. Crow. Okay. ``Vast majority'' is all that you know?
    Dr. Galbreath. Mm-hmm.
    Mr. Crow. Okay. Again, that is a number I would expect you 
to know, because that's important, because that is also a 
reflection of the priorities of our force and how we are 
allocating our resources. And I would expect, as a leader of 
this organization, that you would have that information, that 
you would know how many women are out there within our units 
actually addressing this issue.
    The last question I would like to make is actually 
dovetailing on the Ranking Member General Kelly's comments 
about the impact of NCOs, because we've talked a lot about the 
officer corps and, certainly, you know, the buck stops with the 
officers. But the NCOs are critical. I could not agree more 
with General Kelly's comment that if you want to know what is 
going on in the barracks, if you want to know what is going on 
during off-hours on the weekend, it's our sergeants, our NCOs 
that know what is going on within the units. And I don't 
believe that we are adequately training and equipping the NCO 
corps, through the NCO development system and education system, 
to lead on this issue.
    So, my last statement would actually be a request that we 
figure out a way to better equip the NCO corps and use them as 
kind of our eyes and ears and tools on the front line to 
address this crisis.
    So, thank you, Madam Chair. I yield back.
    Ms. Speier. I thank the gentleman.
    Ms. Garcia is recognized for 5 minutes.
    Ms. Garcia. Thank you, Madam Chair, and thank you so much 
for your leadership on this issue and for agreeing to let me 
waive in since I do not serve on this committee. And with that 
said, gentlemen, if I get some of the acronyms wrong, please 
bear with me, because I am not a member of this committee.
    But, Madam Chair, your leadership on this issue has been 
consistent, and your support. As the Member who represents the 
Guillen family in Houston, I can tell you that they know that 
you're there with them and that this committee is supportive, 
because not only does the family grieve, Houston grieves, the 
Nation grieves. You know, when we see a march in Houston of 
3,000 people in the middle of the heat, but we also see marches 
across America, about 40 or 50 on one Saturday, this is a topic 
that is very, very, very concerning to many, many people.
    I am going to pick up where my colleague Representative 
Sherrill left off. When were these standards of standard or 
criteria for reviews or inspections, when were those developed, 
just quickly? The year.
    Colonel Wempe. Congresswoman, I believe the DOD level 
standard was last updated in May of 2017, I believe.
    Ms. Garcia. 2017. So is there a below standard? Above 
standard? Or is that the only option?
    Colonel Wempe. The policy, both DOD and Army, prescribes 
what the requirements are for training and the programmatic 
things. That becomes the standard.
    Ms. Garcia. I know, but for you to decide whether the 
programs are working, is the only option that they meet 
standard or not standard? Like, I'm used to performance 
reviews. There's above standard, there's below standard, or 
needs improvement. I mean, they're either standard or not 
standard.
    Colonel Wempe. In our methodology, as IGs, because we deal 
with so much subjective information as we receive it from 
soldiers, our assessment that we make about whether or not it 
is meeting the standard is--it includes some empirical 
information, but it also includes a lot of subjective 
information from the soldiers. And so we just make our 
assessment----
    Ms. Garcia. So that is the only option?
    Colonel Wempe. That is correct, Congresswoman.
    Ms. Garcia. Well, because it is disappointing, as 
Representative Sherrill said, that if it is standard, that 
there would still be about one-third or more that are not 
reporting. And then if you look at--especially, I looked at 
the--I also don't understand the difference between a formal 
complaint and informal complaint on sexual harassment.
    Colonel Wempe. In dealing with sexual harassment 
specifically, the formal complaint would be one that they would 
make to the chain of command or to the--to a--eventually to a 
VA [victim advocate], and it would go through the formalized 
process of an investigation and then whatever----
    Ms. Garcia. Well, tell me about informal.
    Colonel Wempe. Informal would be the soldier--for 
timeliness purposes, the ideal is the soldier deals with it 
immediately and the issue gets remedied immediately.
    Ms. Garcia. It wouldn't be that she told her parents? It 
wouldn't be that she told her sisters? It wouldn't be that she 
told friends on the base? That's informal, in my view.
    Colonel Wempe. Informal, in this context from the Army, 
would be reaching out to somebody within the unit or within--at 
that----
    Ms. Garcia. So if she told a member of her unit--and her 
unit was not in this survey, correct?
    Colonel Wempe. That survey was just completed with her unit 
the previous 2 days and the team has returned----
    Ms. Garcia. Right. But if she told someone in her unit, 
that would be informal?
    Colonel Wempe. A victim would have the option of--
regardless of who they told, they would have the option of 
making it formal or informal.
    Ms. Garcia. Well, sir, it's a very direct question. If she 
did share her story with friends in her unit, is that an 
informal complaint?
    Colonel Wempe. It could be, unless she intended it to be a 
formal complaint. She had that option.
    Ms. Garcia. Well, we certainly don't know her intent. She 
cannot tell us her intent. If she could tell her story, we 
probably wouldn't have to have this hearing. But, 
unfortunately, she's not with us. So if she told her friends at 
the unit, or someone there on the base, is that an informal 
complaint?
    Colonel Wempe. If she did not express the intent to make it 
a formal complaint, then that would fall into the category----
    Ms. Garcia. So you are saying that someone would have to go 
and say, ``Sheila, you know what, I was sexually assaulted 
yesterday but I don't want to make that an informal 
complaint''? Someone has to consciously say that they want to 
make it an informal complaint? It seems a little----
    Colonel Wempe. The victim has the option of either making 
it formal or informal. That's their decision.
    Ms. Garcia. Right. Well, it's really disturbing to me that 
the numbers still don't look good. And when I looked at your--I 
guess it is Appendix F of the report, what did catch my eye is 
this formal/informal complaint and how it intermixes with your 
numbers. Because then you also have anonymous complaints. So I 
won't ask you about those, because I'm sure then I'll hear that 
the victim had to have some conscious level of saying it was 
anonymous.
    But I, like Representative Sherrill, think that you all 
need to rethink your assessments, something other than just 
standard, because, obviously, you know, that doesn't quite meet 
today's demands. You know, I don't know what the history is of 
how those were developed. But I think, if we are going to look 
at making change, that is maybe one of the institutional 
changes that we need to make.
    Then I want to quickly ask Mr. Galbreath, you mentioned 
that, in response to my colleague, that there was a very great 
number of women that were SHARP officers or program managers.
    Dr. Galbreath. Sexual assault victim advocates.
    Ms. Garcia. Right. Are any of those women women of color?
    Dr. Galbreath. Yes, they are.
    Ms. Garcia. Do we know how many?
    Dr. Galbreath. I have 22,000 sexual assault victim 
advocates. About 2,500 are full-time members and some of them 
are people of color. Yes, ma'am.
    Ms. Garcia. Okay. Then I want to go back to you, Colonel. 
You said that you did an inspection, but it's not an 
investigation because you wanted to make sure that we quickly 
went in there and saw what's going on at Fort Hood. And you 
started July--no, June 23rd? No, July 27th?
    Colonel Wempe. We arrived and began work June 29th at Fort 
Hood.
    Ms. Garcia. June 29th. Now, that's not really in a hurry, 
is it? Because she went missing April 22nd. I sent a letter of 
inquiry May 23rd. I visited Fort Hood June 23rd. But yet, 4 
months later is when you started your inquiry.
    Does it usually take that long? Because new reports from 
the very, very beginning mentioned sexual harassment. Her 
family shared that story from the very, very start. Why did it 
take so long for you all to try to go in and look at this 
snapshot to see what's going on in case you needed to do 
something?
    Ms. Speier. All right. Mr. Garcia, we're going to have to 
ask for a very short answer because----
    Ms. Garcia. Okay. Great. Thank you.
    Colonel Wempe. The investigative efforts began immediately. 
And we were not part of the investigation by CID, so I can't 
really speak to their timeline or their details.
    Ms. Garcia. No, sir. I was asking about your response on 
sexual harassment.
    Colonel Wempe. Our inspection was really to look at the 
climate at Ford Hood and some of the concerns that had been 
raised.
    Ms. Speier. But it was General Garrett that assigned you 
that task, correct?
    Colonel Wempe. That's correct, Madam Chair.
    Ms. Speier. All right. Thank you.
    Ms. Sheila Jackson Lee, you are recognized for 5 minutes.
    Ms. Jackson Lee. Madam Chair, thank you so very much for 
your stupendous leadership and, certainly, the opportunity that 
has been given to women members and men members of the United 
States Congress to work with you on this extremely important 
work.
    Thank you to Congresswoman Davis, who has led this effort. 
And we have had the opportunity to work with Susan, as well.
    I join my neighbor and dear friend, Congresswoman Sylvia 
Garcia, who has given stupendous leadership, tragically, to 
this issue, and my fellow colleague, Congresswoman Escobar. I, 
too, have come on this committee because of the enormous pain 
that the whole community, the whole State of Texas, and, of 
course, now the Nation, feels about Vanessa.
    So, my colleague has pointed and focused on some questions 
that I would like to follow up on. But at the same time, I 
wanted to make sure that we all saw what kind of vibrant young 
soldier that the Nation lost.
    This represents a youngster who, in high school, was the 
best athlete. There were men who said, ``I can't believe how 
athletic, how strong she was.'' Who, the minute she graduated 
from high school, on June 9th, she shortly shipped off for 
basic training. A true patriot. And a family who came to 
America and did all they could for their children. True 
contributors to the infrastructure of this Nation.
    I think what pains me is that she was missing for 70 days. 
And, of course, the gruesome brutality of her murder. And so I 
want to focus my deepest sympathy to her family and my 
continued partnership, collaboration with Congresswoman Garcia, 
and to join on legislation that I think is absolutely 
imperative.
    So I want to--though you were--I understand Congresswoman 
Speier mentioned another general that was engaged, but I just 
want to read this sentence into the record, or this paragraph: 
``Army officials say Guillen never reported sexual harassment 
through official channels. She told her mother near the end 
that a sergeant had been harassing her. She told her best 
friend that a soldier had walked in on her in the shower.''
    That is well known throughout Houston. It is very painful.
    ``But she wasn't going to file a complaint, she told her 
mother. Her superiors would laugh or brush it off if she said 
something. She bristled at the idea of quitting the Army. She 
would not violate her oath.''
    And so we have a real problem. My colleague pursued 
informal. This is not a complete system. If you have young 
soldiers, male or females, but in this instance saying her 
superiors would laugh or brush it off, then did your study 
pierce into, as Congressman Crow said, I think he called them 
the sergeants or NCOs, did you pierce into, did you try to 
understand, to break that culture, did you interview? And out 
of that report, did you develop policies that do not go to the 
umbrella, the base commander, but get to the individual NCOs? 
Because we lost a life because some young soldier so athletic 
thought that they would bristle or that they would laugh it 
off.
    That's the number one question. I want to get this other 
one in. I think there was a number that you were able to get 
everyone or you thought you reached everyone except 16 or 17 
percent. I just need to get that explained. Leaving that number 
of people still impacted by sexual harassment means that you've 
got thousands of soldiers, because we have millions of soldiers 
that may be impacted by the failure of real policies of dealing 
with ending sexual harassment.
    Then the last question will be, you know, it's trending 
upwards, as I understand. What are we doing to get it to stop 
trending? But the first question is really how did you assess 
or pierce where Vanessa was for her to have relief?
    Ms. Speier. All right. Ms. Jackson Lee has 11 seconds. See 
if you can fill those.
    Colonel Wempe. In the case of our inspection, 
Congresswoman, we did ask those questions. Again, trust in the 
leadership indicated to us by soldiers was very high. And then 
in the sensing sessions and interviews with them we tried to 
really bore into why they would not report. And, again, a 
variety of reasons, very personal decisions as to why they 
wouldn't report. Certainly, concern about how they would be 
perceived by others was one of those various reasons that they 
indicated they would not report.
    Ms. Jackson Lee. Thank you, Madam Chair. I just want to 
join with Congressman Crow to say that we need to deal with 
these sergeants and NCOs. There has got to be a better culture 
for young people in the enlisted men and women.
    I thank you. I yield back.
    Ms. Speier. Thank you. I want to thank our two witnesses 
for your testimony today. I think it is very important, as we 
study this issue, to recognize that Colonel Wempe's 
investigation was not scientifically based. And you cannot 
extract from that that it is relevant to the entire force. I 
think you would agree with that, Dr. Galbreath, correct?
    Okay. Thank you very much.
    We will now have our second panel come forward.
    [Pause.]
    Ms. Speier. The hearing will come back to order. I now 
welcome our second panel.
    Ms. Melissa Bryant, Grass Roots Movement, U.S. Army 
veteran. And Ms. Lucy Del Gaudio, who is Grass Roots Movement, 
U.S. Army veteran. Thank you both for being here today.
    Ms. Bryant, would you like to begin?

 STATEMENT OF MELISSA A. BRYANT, GRASS ROOTS MOVEMENT: JUSTICE 
                 FOR VANESSA, U.S. ARMY VETERAN

    Ms. Bryant. July 29th, 2000, I was a 20-year-old cadet 
stationed at Fort Hood for a few weeks for Cadet Troop Leader 
Training as a part of ROTC. At first I was intimidated by the 
sheer expanse that was Fort Hood, amazed that you could drive 
for miles and miles and still be on post.
    I was assigned to a military police unit where there was no 
platoon for me to shadow to learn how to be an officer. So I 
shadowed the platoon sergeant. I spent time with him and the 
other soldiers in the platoon in the arms room, on the range, 
in the motor pool, in the post exchange, joking around, 
ignoring the occasional overt sexual comments.
    I just wanted to fit in. Here I was with a silver disc on 
my cap, a clear sign that I was a cadet and even lower than a 
private, laughing off comments made about my physique with 
junior enlisted soldiers, all because I didn't want to make a 
scene. It's not like you can pull rank when you're a cadet.
    There were no women officers in the unit and the men, while 
nice guys, were either indifferent or oblivious to the nature 
of the banter. I imagine this is how Vanessa Guillen felt when 
she was sexually harassed by someone who outranked her, even 
when he was also lower enlisted and not in her direct chain of 
command.
    Chairwoman Speier, Ranking Member Kelly, distinguished 
members of the subcommittee, on behalf of the service women-led 
Grass Roots Movement comprised of over 4,000 women and gender-
diverse veterans and over 6,500 allies and supporters, we thank 
you for the opportunity to address the critical issue of sexual 
harassment and retaliation in the military following the tragic 
murder of U.S. Army Specialist Guillen.
    Sexual harassment in the military is not only an epidemic 
of fear, it is a national security risk, systemically degrading 
the integrity of unit cohesion, thus reducing personnel 
readiness. It compromises mission and personnel readiness by 
taking service members out of our combat-ready ranks 
emotionally, physically, and, in Specialist Guillen's case, 
violently and permanently.
    It is an issue of power and dominance and has nothing to do 
with sexual gratification. To add insult to injury, those of us 
who are lucky enough to survive military sexual trauma, or MST, 
stemming from permissive and pervasive hostile environments 
while in the military, face uphill battles with the Department 
of Veterans Affairs once we take off the uniform and attempt to 
claim VA compensation and other benefits for post-traumatic 
stress disorder relating to MST.
    One in five women who experience sexual harassment were 
also sexually assaulted, giving credence to the hypothesis that 
a permissive environment for harassment can foster perceived 
permission for assault by an offender. It was concluded by DOD 
that sexual harassment is the leading factor affecting the unit 
climate on sexual assault. The data also show the majority of 
victims were harassed by someone in their chain of command. And 
perhaps most stunning, 1,021 formal sexual harassment 
complaints were investigated in fiscal year 2019, a 10 percent 
increase from fiscal year 2018.
    It is a common belief that the rates of reporting in recent 
years are resultant of ramped-up military education efforts to 
destigmatize reporting sexual assault in the ranks. However, 
this rising statistic also begs the question of whether DOD 
ever had a fully accounted grasp of the broad scope of its 
harassment problem.
    Fear of retaliation, as expressed by Specialist Guillen to 
her family regarding her own sexual harassment, remains a 
driver for a majority of MST survivors to remain silent. The 
latest data show 64 percent of women who report a sexual 
assault face retaliation, that 66 percent of retaliation 
reports alleged that retaliators were in the reporters' chain 
of command. Approximately one-third of victims are discharged 
after reporting, separated under other than honorable 
conditions, thus impacting their service-connected benefit 
claims as veterans.
    In FY [fiscal year] 2018, over one in four victims who did 
not report harassment or assault feared retaliation from their 
command or coworkers. Many survivors have internalized that the 
investigation process would be unfair, result in no outcome, 
or, worse, adversely impact their career.
    And the trauma doesn't end there. One in five women 
veterans accessing VA have reported being the victim of MST and 
25 percent of the women veteran population report inappropriate 
or unwanted comments or behavior by their male veteran 
counterparts while receiving care at VA facilities.
    I hope this testimony eliminates the persistent challenges 
in seeking justice which MST survivors endure, to include the 
threat of violence and potential loss of life to either suicide 
or homicide, and also how survivors are often condemned to a 
never-ending, hellish cycle of victim-blaming, revictimization 
when recalling their traumatic experiences later in their 
veteran life, severe depression, PTSD [post-traumatic stress 
disorder], and other correlated ailments resulting from a 
military justice system that has repeatedly failed them.
    It does not always get better with time and we cannot lose 
another Specialist Guillen. In the words of many who have 
posted their stories under #IAmVanessaGuillen: not one more.
    Chairwoman Speier and Ranking Member Kelly, distinguished 
members of the subcommittee, again, on behalf of the thousands 
of service members, veterans, and allies of all stripes who 
have mobilized in the last few weeks to demand justice for 
Specialist Guillen, and the thousands of MST victims who came 
before her, we thank you for the opportunity to share our views 
on this critical miscarriage of justice, to advocate for swift 
passage of military justice reforms, such as those underlined 
in Chairwoman Speier's amendments to the FY 2021 NDAA.
    Ms. Speier. Can you please wrap up, Ms. Bryant?
    Ms. Bryant. Yes, ma'am. I agree with Ranking Member Kelly 
in that MST is a scourge on our Armed Forces, diminishing the 
public trust in the institution that is the U.S. military, and 
leading service women, veterans, and advocates in this Grass 
Roots Movement to not only call for the shutdown of Fort Hood 
in response to Specialist Guillen's murder, but to call for no 
future enlistments until a thorough congressional investigation 
by an on-the-ground CODEL [congressional delegation] is 
conducted.
    Thank you.
    [The prepared statement of Ms. Bryant can be found in the 
Appendix on page 65.]
    Ms. Speier. Thank you, Ms. Bryant.
    Ms. Del Gaudio, you are recognized for 5 minutes.

STATEMENT OF LUCY DEL GAUDIO, GRASS ROOTS MOVEMENT: JUSTICE FOR 
                   VANESSA, U.S. ARMY VETERAN

    Ms. Del Gaudio. Good morning, Chairwoman Speier, Ranking 
Member Kelly, distinguished members of the committee. My name 
is Lucy Del Gaudio. I am a United States Army veteran and 
veteran advocate, and I am a member of a coalition of thousands 
of women and gender-diverse veterans seeking justice for 
Vanessa Guillen and systemic change for survivors.
    I served from 1990 to 1998, Active and as a reservist. My 
veteran advocacy work focuses on survivors of military sexual 
crimes, predominantly women who experience sexual harassment 
and assault during their military service.
    I was born and raised in Union City, New Jersey, to Cuban-
Puerto Rican parents. After my father passed away in 1989, my 
mother could not afford two daughters in college and I followed 
my brother's footsteps. I am just one of many minority veterans 
in the community to follow this path. We seek to create legacy, 
to create equity, and to serve our country as patriots that we 
are.
    If I had to use one word to describe my military service, 
it's ``tarnished.'' In 1990, I experienced firsthand how racial 
slurs and sexual innuendos were fundamental training tools used 
by both male and female drill sergeants. Even trusted mentors 
would affirm to me that it's just part of military culture.
    I was sexually assaulted overseas in 1992 by a senior NCO. 
Reporting through my chain of command was my only option, and 
nothing was done. I was told that any pursuit for justice and 
accountability would ruin his career. Despite being a highly 
motivated soldier who was good at her job, retaliation still 
impacted my career. I did not speak openly about my military 
service or assault until 2015.
    These stories we bring to you are like broken records. In 
1992, the same year I was assaulted, my mentor, Diane Dennis, 
testified before the Senate Armed Services Committee about the 
same very topic. She and others made it clear that Tailhook was 
the tip of the iceberg.
    Today, I testify before you 27 years later, working 
tirelessly with a powerful grassroots movement that has 
converged in the fight for justice for Specialist Vanessa 
Guillen, a 20-year-old soldier whose whole life was ahead of 
her and should have never died.
    Women do not report because we fear for our safety, we fear 
for our future, we fear for retaliation, and I have come to see 
this too many times amongst my own story.
    Nearly every year the same reports have pointed to the rise 
in numbers of cases. Yet we don't know how many have gone 
unreported. Who are the people not reporting? They are the 
privates to the lieutenants, the sergeants to the commanders. 
They are the ones who do not feel safe reporting. They are the 
Vanessa Guillens. They are unaccounted for, because if only a 
small number report sexual assault and rape, who is going to 
take the risk to report harassment?
    There is no safe reporting mechanism. There's no protection 
for victims. There's no accountability for predators. The 
murder of Vanessa Guillen is one of long line of issues going 
on in Fort Hood. The base is a hot spot. This year, 23 soldiers 
in Fort Hood have died or have been found dead. It begs to 
question, what is happening at Fort Hood?
    Each new story that I received from women at Fort Hood are 
heartbreaking. My mom and aunt pressured me to say something 
but I didn't. CID closed my case without notifying me. He got 
off with just an assault charge and later promoted. I was 
pushed out for not getting over what happened to me. The 
triggers never really go away. They just lessen with time.
    These are the steps I ask for Congress today. Open a 
congressional investigation into the death of Specialist 
Vanessa Guillen, including a visit to Fort Hood so you could 
review the facilities yourself firsthand and see what is taking 
place there. Remove reporting of sexual assault and harassment 
from command jurisdiction and create an outside investigation 
entity. Commands have proven that they are incapable of 
investigating themselves and bringing accusers to justice.
    Require all future DOD annual reports to include data 
separated by installation to identify the problem posts for 
readiness and compliance issues.
    The culture of power and control creates and molds toxic 
leadership. This system is so static it is Gorilla Glued to the 
floor of the basement. We can't even see the glass ceiling when 
it comes to elimination of harassment and sexual assault in the 
military. If this is going to change, the DOD must take this 
issue seriously. Zero tolerance means zero tolerance. Military 
justice must be swift and it must be just.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Del Gaudio can be found in 
the Appendix on page 76.]
    Ms. Speier. Thank you for your powerful statements.
    Ms. Del Gaudio, you referenced that there were 23 soldiers 
at Fort Hood who have died or have been found dead. I'm deeply 
troubled by the homicides that have taken place that are still 
unsolved. You mentioned four homicides, seven suicides, and one 
combat-related death. But there are 11 more. Do you have an 
understanding of the other 11?
    Ms. Del Gaudio. Ma'am, I don't at this time. We've gotten 
reports from several different avenues. But I will give you 
further--I will further--Melissa, if you want to address that.
    Ms. Bryant. No, I don't have it, either. I was saying that 
that is something that we do recognize, the permissive 
environment of sexual harassment has seemed to have an impact 
in a portion of those 23 deaths, those homicides that have 
taken place. But we would have to get that back to you for the 
record, ma'am.
    Ms. Speier. So where did you get the data?
    Ms. Del Gaudio. All over the news media, different reports 
that we have seen from different individuals that did not want 
to disclose who they are within the Fort Hood community.
    Ms. Speier. All right. Ms. Bryant, you referenced that a 
third of those who are harassed are separated, which was an 
astonishing number that I hadn't heard before. Where did you 
come up with that figure?
    Ms. Bryant. Yes, Chairwoman. That is--excuse me. Pulling my 
sources here.
    I believe that that was pulled from one of the VA reports 
that I have from the Veterans Benefits Administration. The one-
third that were separated under other than honorable conditions 
has also been noted. Sorry, I am just looking for my exact 
quote here.
    Ms. Speier. Well, maybe you can just provide it to the 
committee. It is certainly something that we have to look into 
with greater detail.
    Ms. Bryant. Absolutely.
    Ms. Speier. I'm going to allow you each a minute of time to 
talk to us without the benefit of notes or scripts. Tell us 
what we should do.
    Ms. Bryant. First and foremost, the amendments that are 
currently within the FY 2021 NDAA that relate to changing the 
reporting chain, that relate to allowing a removal of bias in 
the chain of command, taking it to a special prosecutor to be 
able to have impartiality in investigations and in prosecutions 
of sex crimes in the military, it absolutely must pass within 
the NDAA this year. This is the time where we must remove that 
implicit bias.
    I can speak as a former captain, a former commander, when I 
was just 25, 26 years old and I had an NCO who came and spoke 
to me and told me about her sexual harassment and assault, and 
I didn't know what to do at the time.
    This is in 2005, 2006 timeframe, and I didn't know what I 
should have been doing at that point. I asked her repeatedly I 
want to make this a public record and see if we can assist you 
in any way we can, and she declined. And this has been repeated 
over time; 15 years, 20 years. Nothing has changed. Since 
Tailhook, nothing has changed. So we need that bias to be 
removed. We need for reporting chains to be permissible for 
soldiers and other service members to be able to speak with 
comfort and without fear of retaliation.
    Ms. Speier. Thank you. Ms. Del Gaudio.
    Ms. Del Gaudio. I have to say that, listening to the panel 
before me, I felt that they were doing a lot of blame on the 
SHARP program, and I don't think that's fair. I think we have 
to look at NCOs, the toxic creation of their leadership, 
because that's where it stems from. It's just a continual cycle 
of toxic leadership that is the gratification of degrading 
women, degrading men, degrading, you know, our LGBTQ [lesbian, 
gay, bisexual, transgender, queer or questioning] community. It 
is just the way the military works.
    And, sir, when you said about ``it's not my Army,'' that 
really affected me, because when I went into the Army I 
followed my brother's footsteps. He was my recruiter, and he 
assured me that his Army was going to take care of his little 
sister, and it didn't. It didn't take care of me. We have to do 
better by our women. We have to do better by our women 
minorities, our black and browns, our Latinas. We're really 
being affected. That E-1 to E-4 pool in the Army are targets. 
We have to do better by them, because 9 out of 10 of those 
women want to stay and their experience doesn't let them stay, 
and retention is blown away.
    I wanted to stay in the military. I wanted to make it a 
career. My brother served in the Marines for 22 years. My 
brother served in the Army for 32 years. I wanted that, and it 
was taken away from me because I didn't feel safe.
    Ms. Speier. Thank you very much.
    Ranking Member Kelly, you are recognized.
    Mr. Kelly. Thank you, Chairwoman Speier. And, first of all, 
I thank each of you for your service to this great Nation. 
Thank you. It means something. Even if it was a bad experience, 
I still thank you for choosing to serve our country. That is 
very admirable.
    I do want to talk about--it bothers me that we talk about 
23 deaths and we relate all of those to sexual harassment but 
we don't even know who the 23 are. That bothers me. That is a 
statement that--I don't need numbers thrown out. I need actual 
facts that have a basis. So, that bothers me.
    And then I want to touch a little bit on Specialist 
Guillen. An amazing human being and that should never have 
happened. An amazing soldier. That should never have happened. 
I don't think there's anybody on this panel, I don't think 
there's anybody at Fort Hood, I don't think there's anybody in 
the Department of Defense who in any way can justify her 
unlawful and awful killing. My heart and soul goes out to that 
family. When you serve your Nation you expect to be protected.
    That being said, the sexual harassment and the murder are 
two separate things. They are not connected in any way, and to 
suggest otherwise is just not true. That is not what the 
facts--now, there may be other facts later that reveal that. 
But I can tell you, from my knowledge, and I've had people 
testify on this--and I've been to Fort Hood. I spent over a 
year of my life at Fort Hood and it is a large, sprawling 
complex.
    I thank each of you, but we have to be real careful, 
because words have meaning and there are consequences to tying 
things together that are unrelated, and I think they have a 
negative impact on what we're trying to achieve. Because I want 
to tell you what I am trying to achieve. I want a Department of 
Defense that no sexual harassment or no sexual assault ever 
occurs, that no racism, no extremism is ever allowed.
    Now, I know that's a rainbow and cherry tree approach, 
because there are bad people in this world and there always 
will be, and some of those will become soldiers or sailors or 
airmen and Marines. But that is my goal.
    And so what can we do? What can we do to our NCO corps? 
Because I think that's the key. I think that is the key. What 
can we do to train or instill or inspire our service members at 
the proper level to let people know, when you do this the 
entire Army, the entire Navy is going to out you. We are going 
to put you out there to shame you for doing these dastardly 
deeds that you have done.
    What can we do to train our NCOs, Ms. Bryant?
    Ms. Bryant. In training our NCOs, I agree with you in that 
that is key to this. But it's at all levels. It's at the 
service academies. It's at the boot camp. It's at AIT [Advanced 
Individual Training]. It needs to be continuous and it needs to 
be iterative. That is what needs to happen. We need to 
inculcate within our ranks that this will not be tolerated and 
there will be consequences and repercussions for your actions.
    I will not--I will simply say this: I do disagree, in that 
the permissive environment that I have experienced, that Lucy 
has experienced, that Vanessa Guillen experienced, if it's okay 
to laugh and joke about how we look in our uniform, to grope 
us, to say things, and then we laugh it off and then we're 
shamed into being able to speak out loud----
    Mr. Kelly. I understand, and you get to say that.
    Ms. Bryant [continuing]. That is what creates--that creates 
a hostile environment.
    Mr. Kelly. I'm reclaiming my time. Reclaiming my time. I 
absolutely agree with what you just said. But that's not--what 
I am trying to do is, what can we do for our NCOs, our junior 
officers, our senior officers? What can we do to make sure that 
this doesn't continue to happen? That's what I want to do.
    Ms. Bryant. Public shaming.
    Mr. Kelly. I agree there is a problem. So I'm not 
disagreeing.
    Ms. Del Gaudio. It's not a yearly discussion. It's a 
continuous discussion. We just do, you know, a few hours in 
basic training, a few hours in AIT. Maybe when they go to BNOC 
[Basic Noncommissioned Officer Course]. Maybe when they go to 
others.
    It has to be continuous. It's a conversation. It's 
happening all the time. We have to have the candid discussions. 
We have to create a culture that if I say to Melissa, ``I'm 
being harassed,'' it's--it has to be a courageous conversation. 
We do not create a courageous conversation. We have to instill 
that in our military. If a woman, a man, wants to go into the 
military, we have to say okay, X, Y, and Z could possibly 
happen and you could be courageous enough and we are going to 
protect you. But we----
    Mr. Kelly. I agree, and let me reclaim just a second, 
because I agree and I think one of the keys is we've got to 
teach them early. It has got to measure--like Mr. Crow said, 
it's got to be in time. We've got to give hours and blocks of 
instruction and it's got to continue, not online, but in 
person, throughout a career.
    And with that, Madam Chairwoman, thank you again, and I 
yield back.
    Ms. Speier. Thank you, Ranking Member Kelly.
    I think the key is we've got to change the whole program, 
because online is not cutting it. And I agree with you. I think 
the NCOs need to have specialized training, as well.
    Ms. Davis, you are recognized for 5 minutes.
    Mrs. Davis. Thank you, Madam Chair, and thank you, Ms. 
Bryant, Del Gaudio. I'm very pleased that you're here, thank 
you, and for all that you have done to, certainly, highlight 
and bring the attention to Specialist Vanessa Guillen.
    I wanted to ask you a little bit about your look at what 
happened regarding AWOL for Ms. Guillen. What did you see that 
was done correctly, but what was wrong?
    Ms. Del Gaudio. Thank you, ma'am. What blew me away is that 
if a weapon went missing, nobody would have been allowed to go 
home. Her property was still in her unit. That should have 
indicated something. We were more accountable for the weapons 
in that unit than for our own soldier. Right there, that blew 
me away. And I still repeat it over and over in my head that a 
weapon had more accountability than a young woman soldier.
    So that, to me, was heart-wrenching. We have to do better 
by us. If you had evidence that something possibly happened--
her stuff was there. Vanessa's stuff was there, and nobody had 
any indication of, like, this is not AWOL. It's just not.
    Mrs. Davis. And if I may, Ms. Bryant, too--I mean, what 
comes to--why do you think that happened? And I understand, as 
well, Private Gregory Morales, also under the same 
circumstances. But is it because they just decided that there 
was something about her?
    Ms. Bryant. Ma'am, I think the issue that is the elephant 
in the room in the military is addressing race. It is 
addressing the intersectionality that impacts our service. 
Those of us who are women of color who serve, we know that 
double burden all too well.
    And I would like to point out that I'm sure this committee 
has heard many times over the 5 years that Bowe Bergdahl walked 
off a fire base and went missing, and how much blood and 
treasure the Army, the military, spent looking for him. But she 
was missing, her stuff was there, and no one went looking for 
her, because black and brown women go missing all the time and 
no one cares.
    Mrs. Davis. And there did seem to be a sense that they 
believe that she had walked off, walked away. And that was 
striking. Truly striking.
    We are trying to get at some of the ways in which, as 
people are recruited, come into the service, serve, whether 
it's as a noncommissioned officer or even, you know, through 
the ranks of officers, is there something in the way that we 
conduct surveys, climate surveys, that doesn't allow people to 
come forward and truly say what they know, as if you see 
something do something. What can be done about that as 
individuals, as you've experienced that. Some of our colleagues 
have experienced that, as well.
    Ms. Del Gaudio. I think having listening sessions with your 
command is not acceptable. I think you have to have that 
gender-specific conversation, because I know that if I am in 
the room with my male counterparts I'm not going to be as 
honest and open as possible to what happened to me.
    I think there should be an independent party practice when 
it comes to survey initiation. I think we have to also do 
better what type of data we are aggregating; you know, age, 
rank, and gender is just not enough. We need to know what type 
of ethnic background you are. We need to know your sexuality. 
We need to know all those factors. And I think that will do a 
great justice when it comes to being more honest and open.
    Mrs. Davis. Should there be a greater hand, when someone is 
being considered for a promotion, that the members of the unit, 
that the family, has an opportunity to weigh in in a way that's 
different from what happens today?
    Ms. Del Gaudio. I was plagued by promotion, of not getting 
promoted because of my weight. The Army weight requirements I 
never met. So the burden in 1992 of getting constantly tape-
measured was, A, horrible, but, B, was part of the harassment 
that I endured, because when an NCO is tape-measuring you and 
touching you in places that you don't want to be touched, it's 
horrifying.
    So, that alone, I missed two promotions because I was 2 
pounds overweight and my BMI [body mass index] did not match. 
That's absolutely absurd. I was a highly motivated soldier. It 
shouldn't have meant that my 2 pounds were going to deny my 
promotion.
    Mrs. Davis. Thank you. Thank you for that.
    Ms. Speier. My understanding is now NCOs do not take those 
kind of measurements, thank God.
    Ms. Del Gaudio. Thank God for the BMI machines, because 
those tape measures were just absolutely awful. Excuse me for 
that comment.
    Ms. Speier. Ms. Escobar, you are recognized for 5 minutes.
    Ms. Escobar. Thank you, Madam Chair, and thank you both to 
our panelists for being here and for sharing your stories with 
us.
    We know that Vanessa Guillen told her family that she was 
afraid of reporting sexual harassment. And you both have been 
subjected to harassment and assault. I think it's very 
important for this committee, as we continue to try to change 
things that have been going on since women entered the military 
ranks--and actually before that because men also are victims of 
sexual assault and sexual harassment. Help us understand; when 
you do report it, can you tell us what happens? What are the 
actual moments, and what happens in the moments and the weeks 
afterwards that creates an environment of fear and retaliation?
    Ms. Bryant. I would say that what happens versus what 
should happen is the problem, and that is that there are formal 
reporting requirements. I understand that Colonel Wempe, you 
know, explained that. It's articulated in a pretty detailed way 
within SAPRO guidelines.
    However, that is not what actually occurs, and that is what 
we have experienced ourselves. And, over time, it's what we've 
heard repeated by thousands of women, and male survivors, as 
well, who say that they did speak to a command, they did speak 
to someone, and it just didn't go any further. Or they were 
told, well, why don't you think about this. Think twice.
    Again, we constantly hear the refrain of think of so and 
so's career. Sometimes, think of your own career. And that is 
what happens where that fear of retaliation comes. It's a 
hopelessness where you feel as though what's the point?
    I also want to, very quickly, answer back to Congresswoman 
Speier's question. The data on the third of victims who are 
discharged after reporting came from an aggregate of Protect 
Our Defenders. It's derived from the DOD SAPRO report from 
2016.
    Ms. Del Gaudio. For me, it was, ``Are you sure?'' ``Are you 
sure that happened?'' And that shouldn't be a question asked: 
``Are you sure it happened?'' I heard that statement for a 
whole week: ``Are you sure it happened?'' And from multiple 
members of my chain of command. And that's what's disheartening 
is that they just don't believe us, or they're just protecting 
the person who is higher ranking than you. I was an E-3. 
Shouldn't have ever happened to me.
    Ms. Escobar. And once you did--because both of you reported 
and even after--clearly, the first step, you are discouraged. 
You are told to think of your career, think of the person who 
assaulted you or harassed you, think of their career. So that's 
the first point where we need reform.
    What happened after you reported, when you decided, 
regardless of the consequences, it's important for me to 
report? What happened then?
    Ms. Bryant. In my case, unfortunately, I shrugged it off. I 
was gaslit to believe that, as an officer, that that was the 
price of admission to being in the Army. I was often the only 
woman officer around. I also felt very much of a mama bear 
protective mode for my fellow soldiers, and so I would try to 
protect them when they would come to me and then further on 
report. But in my own case, I wasn't strong enough to do the 
same.
    Ms. Del Gaudio. Mine was just completely swept under the 
rug. I don't have anything. No justice. Being here today is 
somewhat justice for me. Speaking to you all is justice for me. 
Being able to speak about it honestly and openly is justice. 
And a lot of us feel this way because nothing gets done.
    Ms. Escobar. Thank you both. Madam Chair, this is very 
similar to what I have heard in my own district from victims: 
an inability to get information about why something was 
dismissed, an accusation was dismissed, why there was no 
further investigation, leaving victims even more confused, 
leaving victims even more distraught, feeling like there is no 
justice. And this is for assault, much less for harassment. 
This is why I do support our efforts to look at innovative ways 
to reform the system, which includes taking it outside of the 
chain of command.
    Thank you both very much. I yield back.
    Ms. Speier. Thank you. Ms. Del Gaudio, what happened to 
your assailant?
    Ms. Del Gaudio. Ma'am, I don't know. He just went going on.
    Ms. Speier. He stayed within the military----
    Ms. Del Gaudio. He stayed within the military. Again, when 
I left, I left. I completely disconnected.
    Ms. Speier. Thank you.
    Ms. Garcia, you are recognized for 5 minutes.
    Ms. Garcia. Thank you, Madam Chair. It's good to see you 
all again. And, you know, just hearing your stories just really 
tears at my heart because, again, it just brings so many 
memories of the Vanessa Guillen case and, of course, hearing 
from her family members, her sister, her mother, about what she 
shared with them.
    And I can assure you that we shared this with her command 
as soon as I was able to communicate with them. And I can also 
tell you that it was disappointing, when I visited Fort Hood in 
June 23rd, which already was 2 months after she had been 
missing, that they admitted that they had not pursued 
investigating the sexual harassment allegations because they 
were doing a criminal investigation. And I still recall the 
meeting because I pointed out that sometimes the sexual 
harassment can be the motive, the motive, for a murder. But 
yet, they said, well, we are only doing criminal.
    So I think that there may have been a disconnect, because 
it's possible that it could have been connected. They just 
didn't pursue that line of investigation.
    Now they have, but they continue to say that there's no 
credible evidence. So, apparently, so far they have found 
anything from the parents or friends not credible. But we are 
still working on it.
    So, thank you for being here and sharing. And, you know, it 
is just so hard to even crystallize a question. You have heard 
the previous testimony from the panel and the colonel saying 
that he was looking at it quickly to get a snapshot of what was 
going on. But we know she went missing the 22nd and they didn't 
start until July 27th, 4 months later. Is that quick? I mean, 
is that indicative of the inaction and response to these kinds 
of allegations?
    And that is a question for both of you.
    Ms. Bryant. It's absolutely indicative of the lack of 
caring for a soldier's life.
    To also answer that question, I want to note back to the 23 
others that have died, because this is a report from the Army 
to CNN. Seven were off-duty accidents, seven were suicide, one 
was combat, four were homicide, two natural causes, and one 
undetermined.
    Ms. Garcia. Does that include the--I mean, I think there 
now is five soldiers from Fort Hood that have died within a 
year. Of course, that also includes the alleged perpetrator of 
this case.
    Ms. Bryant. It does. And I think that when you talk about 
especially suicide, when I talked about, in my opening remarks, 
of what we experience even as veterans, as a veteran advocate I 
deal with women and men who are survivors who have PTSD from 
MST who have suicidal ideation, who often, sadly, succumb to 
the sadness that haunts them.
    And so there is correlation between that command climate, 
that permissive environment for hostility, and then what 
ultimately happens to our bodies when we can't take it anymore.
    Ms. Garcia. Ms. Del Gaudio, your response to my question?
    Ms. Del Gaudio. I will speak personally. The minute it 
happened, for me, I became a different soldier, and my command 
treated me differently and my behavior changed. And that's the 
problem. They started looking at me as a behavioral problem, 
not as an assault victim. And that's something that needs to be 
addressed in this culture, because the minute we claim our 
sexual harassment, the minute we claim our assault, then we 
start the--it's PTSD right away. You become angry. You become 
bitter. You become very responsive to things that are taking 
place. You become defensive, and then you are the issue.
    Ms. Garcia. Right. So, let me ask you the question I tried 
to ask the colonel. What about this business between informal 
and formal? You all are shaking your heads. What does that 
mean?
    Ms. Del Gaudio. You know, the formal is going through your 
chain of command. They do all the paperwork, blah, blah, blah. 
The informal is when I--when it happened to me is 1992. You 
know, we didn't have social media. We didn't have mechanisms 
to, you know, record something.
    So, again, I would take that message that the parents have 
received, the calls that she made to Lupe and Mayra, the calls 
she made to his friends. To me, that's informal.
    Ms. Garcia. But, apparently, it has been concluded it is 
not credible, at least so far.
    Ms. Del Gaudio. Yeah, it's not credible. But, honestly, if 
she told her parents and she's not here right now to testify, 
that should say something and speak volumes.
    Ms. Speier. All right. Your time has expired.
    Ms. Garcia. Yield back. Thank you.
    Ms. Speier. Ms. Jackson Lee, you are recognized for 5 
minutes.
    Ms. Jackson Lee. Thank you, Madam Chair.
    Ms. Speier. Is her microphone on? Is there a microphone?
    Ms. Jackson Lee. I, certainly, thank the previous panel, as 
well, for their service.
    Would you kindly, both of you, just give me--Ms. Bryant, I 
want to call you Captain. What was your time of service? What 
years were you in?
    Ms. Bryant. I served on Active Duty from 2001 through 2009, 
ma'am.
    Ms. Jackson Lee. And Ms. Del Gaudio?
    Ms. Del Gaudio. Ma'am, from 1990 to 1998, Active and 
Reserves.
    Ms. Jackson Lee. So in the course of both of you, there 
were conflicts, wars that this Nation was involved in, and I 
would imagine every single soldier was valuable and should have 
been considered as such.
    As I understand Ms. Guillen's last days, she came in on a 
day off or extended herself as any good soldier. Wasn't at a 
picnic. Was there counting arsenal weapons, if you will, and 
she was doing her job.
    So I want to pose this line of questions. I understand her 
family came up. As close as they are, not getting that regular 
call the very day that she was missing, and arrived about 2:30 
a.m. in the morning but did not get seen until 9:00 a.m.
    So my question is--I understand discipline. I'm a civilian. 
What does that culture do? To me, that looks offensive. It's 
time lost in the investigation.
    Obviously, 70 days, or however long it was that my 
colleague indicated, that, too, seems to diminish human life 
when all the movies that we see, military movies, says don't 
leave one soldier behind.
    Captain, and then I didn't get Ms. Del Gaudio's rank, I'll 
call you that, as well.
    Captain.
    Ms. Bryant. It's absolutely a miscarriage of justice to not 
have that investigation move forward. I raised about Bowe 
Bergdahl earlier, and I can't help but think when he walked off 
his fire base in 2009 I was in the Pentagon at the time. I was 
a GS-14 by then. And we had meeting after meeting, battle 
update brief after battle update brief, looking for this man 
who walked off of a fire base and was captured by the Taliban. 
Or the Haqqani Network, I should say. And no one cared where 
Vanessa Guillen was for hours and she is right there in 
garrison with the resources of both the Killeen Police 
Department as well as the military police in Fort Hood? Ma'am, 
that's UNSAT [unsatisfactory].
    Ms. Jackson Lee. Thank you. Ms. Del Gaudio. And I have 
other questions, so any comment on that point?
    Ms. Del Gaudio. For me, again, I think it's disrespectful. 
Her family went there to look for her. You should have worked 
with urgency and immediacy, because I know my family would have 
been really looking for an answer, and for them not to give it 
to them is just disrespectful.
    Ms. Jackson Lee. Discipline and war readiness shouldn't 
have nothing to do with human decency, and I think one of the 
issues in the culture of the United States military, overall, 
is that they equate discipline and the toughness of the 
military with dealing differently with human needs. I believe 
Vanessa Guillen in terms of sexual harassment. I believe it in 
terms of her parents. I believe it.
    So, let me just get this question in. You mentioned that 
CID, this is an internal process, closes cases. I think someone 
mentioned they closed their case. I know there's been great 
progress with Congresswoman Speier on the process. But I, too, 
believe of an independent investigation and process. But 
explain what that means, close it. And then someone said--I 
don't know if it was you, Del Gaudio--what was your rank? I'm 
sorry.
    Ms. Del Gaudio. E-4, ma'am.
    Ms. Jackson Lee. E-4. That they went on in their career. 
They went on and got promotions. Someone said they went on and 
got promotions. I think it's important for the military to hear 
what that means when there's an investigation and then someone 
went on. I know innocent until proven guilty, but then went on 
and got promoted.
    Captain, do you want to start with that, please? My final 
question.
    Ms. Bryant. It absolutely speaks to the culture within the 
military, the very essence of what needs to change. It's 
something where, when their career, when the offender's career 
is more favored upon, when the preponderance of evidence is not 
considered, oftentimes, you will hear that statements are 
inconclusive. Sworn statements are inconclusive. We took an 
oath to support and defend the Constitution. No one's going to 
lie about their assault or their harassment.
    And so that statement on its surface needs to be accepted. 
We need to believe women. We need to believe survivors. And 
that needs to be a zero tolerance of closing investigations 
until you have turned over every stone.
    Ms. Del Gaudio. So, the young lady that provided the 
statement for me, when she found out I was testifying she had 
someone contact me. And, again, she didn't know that CID closed 
her case until--she was unnotified until she, you know, asked 
what's going on. That's when they told her, oh, your case is 
closed. And that just--it's like a common theme. When you talk 
to survivors, all these statements that I made are common 
themes. You know, CID closed the case without notifying me. He 
got off--you know, he just had assault charge and then 
promoted. And then you're the--we're just--we're made to be the 
bad guy and----
    Ms. Speier. Thank you, Ms. Del Gaudio.
    Ms. Del Gaudio. I am sorry.
    Ms. Speier. Her time has expired.
    Thank you all for being here. Your testimony was 
extraordinarily powerful. And I think for all of the members 
who have participated in the panel it has been a very sobering 
one and a very important one.
    I want to say to the Guillen family that we are not going 
to let Vanessa to have died in vain. And every step will be 
pursued to find justice. There is legislation that will be 
introduced. But, beyond that, I intend to lead a CODEL to Fort 
Hood within the next month, and I invite all my colleagues to 
join me. We are going to continue to investigate this.
    Thank you again for being here. We stand adjourned.
    [Whereupon, at 12:19 p.m., the committee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                             July 29, 2020

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 29, 2020

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
   

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             July 29, 2020

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             July 29, 2020

=======================================================================

      

             RESPONSE TO QUESTION SUBMITTED BY MR. BERGMAN

    Dr. Galbreath. Each year, an estimated 0.3% of individuals aged 17 
to 35 in the U.S. population become applicants for military service, 
either enlisting or formally processing for enlistment.   [See page 
14.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MS. SHERRILL
    Colonel Wempe. Our inspection identified that approximately 36% of 
the 53 female Soldiers we anonymously surveyed reported having been 
sexually harassed in their current unit during the past year. Of those 
Soldiers who reported experiencing Sexual Harassment, 74% stated that 
they had reported the harassment. Our survey did not differentiate 
between the three different methods of reporting sexual harassment 
under Army Regulation 600-20: formal, informal, and anonymous 
complaints. Our focus was on the unit climate with respect to 
reporting. Data for the entire installation that is comparable to our 
survey data is not currently available. The way the inspection 
collected the survey data does not allow for accurate extrapolation to 
determine sexual harassment incidence and reporting for all of Fort 
Hood. Of the units surveyed in the inspection, we determined the 
climate was conducive to reporting allegations of sexual assault or 
sexual harassment.   [See page 20.]
                                 ______
                                 
               RESPONSE TO QUESTION SUBMITTED BY MR. CROW
    Dr. Galbreath. Enclosure 10 to Department of Defense Instruction 
6495.02 delineates the SAPR training requirements for all DOD 
personnel. The instruction includes a requirement to ensure all new 
accessions are trained and that training data is annotated. 
Specifically, initial SAPR training is required within 14 days of 
initial entrance to active duty or duty status with a Reserve 
Component. Training topics include: DOD Sexual Assault Policy, 
interactive scenarios to explain reporting options, and the resources 
available. Accessions training shall occur upon initial entry and 
annual training shall occur once a year and is mandatory for all 
Service members regardless of rank or occupation or specialty. The 
Secretaries and the Chief, NGB, are responsible for developing 
dedicated SAPR training to ensure comprehensive knowledge of the 
training requirements. The Undersecretary of Defense for Personnel and 
Readiness through DOD SAPRO evaluates service training programs to 
ensure compliance with those requirements (6945.05, enc 10,2.a.).
    ARMY Initial Entry Trainees receive Sexual Harassment/Assault 
Response & Prevention (SHARP) training within the first 48 hours of 
arrival at reception with follow on training at Basic Combat Training 
(BCT)/One Station Unit Training (OSUT), and Advanced Individual 
Training (AIT). A total of 6.5 hours is dedicated to formal SHARP 
instruction (Reception--1.5 Hours; BCT/OSUT--3 Hours; and AIT--2 
Hours).
    NAVY Enlisted Recruit Training Command (RTC) provides two lessons 
of Sexual Assault Prevention and Response (SAPR) during the first three 
weeks of Basic Military Training (BMT). The first lesson, Sexual 
Assault Prevention and Response, is scheduled for 90 minutes during the 
first week of training and is taught by one instructor holding the 805A 
(Recruit Tactics Instructor) Navy Enlisted Classification (NEC). The 
second lesson is from the Department of the Navy (DON) Sexual Assault 
Prevention and Response Office (SAPRO) and is entitled, ``Not On My 
Watch: SAPR Curriculum for RTC'' (Initial SAPR Follow-Up). This lesson 
is scheduled in the third week of training for three hours and is 
facilitated by a junior officer (O-3) and a senior enlisted (E-7/8) 
staff member. There is a page within the recruit trainee guide that 
recruits can reference during the RTC SAPR training. This training also 
includes information on sexual harassment prevention. LifeSkills is a 
32-hour training curriculum provided during A school and taught by 
Lifeskills training instructors. The course curriculum covers a wide 
variety of basic life skills topics such as smoking, drug and alcohol 
use, healthy relationships, sexual harassment, sexual assault, 
budgeting, using credits cards, buying a car, getting insurance, 
healthy eating, weight management and using Tricare. The sexual assault 
portion of the curriculum is scenario-based interactive training 
containing approximately 2 hours of sexual assault specific training 
and 3 Bystander Intervention scenarios, approximately 15-25 minutes 
each. Naval Officers are assessed from three sources: the United States 
Naval Academy (USNA), Naval Reserve Officer Training Corps (NROTC), and 
Officer Candidate School (OCS). On USNA Induction-Day (I-Day), all 
Plebes (incoming freshmen) receive a brief overview and brochure of 
SAPR definitions and resources. During the next 14 days, Plebes receive 
approximately 2 hours of training while broken down into small groups 
of 20-40 personnel. Plebes also have the opportunity to complete a SAPR 
Survey during Plebe Summer. During NROTC New Student Indoctrination 
(NSI), Midshipmen in NROTC units receive approximately 30 minutes of 
SAPR Initial Training, which is provided by the local Sexual Assault 
Response Coordinator (SARC) or SAPR Victim Advocate (VA). NROTC 
Midshipmen also receive training entitled, ``Above Board,'' at the 
beginning of their NROTC program. This training lasts approximately two 
hours and is taught by the SAPR Point of Contact (POC) or another staff 
member in the unit. Lastly, Midshipmen receive training on Title IX and 
university-specific sexual assault and harassment policies from 
university personnel. Prior to graduation/commissioning, units across 
the country facilitate the DON SAPRO Pre-Commissioning training, ``Make 
a Difference; Be the Solution,'' for approximately one hour. OCS 
candidates receive SAPR Initial Training for one hour in the first week 
of training, which is taught by the SARC or SAPR VA in a max class size 
of 50. They also obtain two hours of the DON SAPRO Pre-Commissioning 
Training, ``Make a Difference; Be the Solution,'' which is facilitated 
by the Learning Standards Officer (LSO) or SAPR POC in week 12.
    MARINE CORPS Training and Education Command facilitates the 
Military Occupational Specialty and PME courses. Sexual assault is 
discussed during PME. At recruit training (boot camp) and Marine Combat 
Training/MOS schools, Marines receive SAPR Annual Training. At Officer 
Candidate School (OCS), The Basic School (TBS), and Expeditionary 
Warfare School, Officers receive SAPR Annual Training. At First 
Sergeants Course and Commandant's Combined Cornerstone for slated 
commanders and their Sergeants Major, these leaders each receive a 120-
minute training led by HQMC SAPR. The annual trainings offered to 
Marines are as follows:
    <bullet>  ``Step Up'' Bystander Intervention Training for Junior 
Marines. SAPR VAs lead this 90-minute annual training for Marines 
ranked E1-E3.
    <bullet>  ``Take a Stand'' Bystander Intervention Training for Non-
Commissioned Officers. SAPR VAs lead this 90-minute annual training for 
Marines ranked E4-E5.
    <bullet>  SAPR Annual Training for Staff Non-Commissioned Officers 
and Officers. SARCs or SAPR VAs led this 60-minute annual training.
    AIR FORCE The Department of the Air Force (DAF) has four accession 
gateways. All officers enter through the United States Air Force 
Academy (USAFA), Officer Training School (OTS), or DAF Reserves Officer 
Training Course (AFROTC). Enlisted personnel enter through Basic 
Military Training (BMT). At USAFA: Cadets receive virtual Sexual 
Assault training prior to arrival. Following this, within fourteen days 
of arrival, all new Basic Training Cadets receive initial sexual 
assault prevention and response (SAPR) training. Additionally, during 
the first year, all Cadets receive Initial Cadet Bystander Intervention 
Training (CBIT). New cadets receive a total of two hours and forty-five 
minutes of SAPR training in their first year. Cadets also receive 
virtual Sexual Harassment training prior to arrival. All cadets then 
receive Equal Opportunity (EO) training within thirty days of arrival 
on station. New cadets receive a total of two hours and forty-five 
minutes of EO training in their first year. Due to the impact of COVID, 
that is currently reduced to one hour and forty-five minutes.
    OTS: Officer candidates receive SAPR training within fourteen days 
of arrival on station and then within the first five weeks of training. 
It is instructed by the installation SAPR office (SARC and SAPR VA). 
Officer candidates receive three hours and thirty minutes of SAPR 
content. Officer candidates receive Sexual Harassment/EO training prior 
to arrival and within the first five weeks of training. This content is 
taught prior to arrival, and over the course of two sessions within the 
first five weeks of training. Over the course of their education, 
AFROTC officer candidates receive a total of five and a half hours of 
SAPR training. SAPR content is spread out over five different courses/
terms. Officer candidates receive Sexual Harassment training during 
multiple courses. Over the course of their education, officer 
candidates receive a total of one hour of training on Sexual 
Harassment. Sexual Harassment content is spread out over two different 
courses/terms.
    During BMT: Trainees receive SAPR training within fourteen days of 
arrival and two other times while at BMT. Training is provided in four 
sessions throughout BMT. Trainees receive Sexual Harassment training 
during their initial arrival briefing, and during six other briefings 
while at BMT. Trainees receive a total of fourteen and half hours of 
Sexual Harassment related content over the time of their training.   
[See page 23.]

?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 29, 2020

=======================================================================

      

                   QUESTIONS SUBMITTED BY MS. SPEIER

    Ms. Speier. In the case of Vanessa Guillen, she told her family, 
her friends, and fellow soldiers about the harassment. Does this meet 
the standard of reporting for an informal complaint? If not, shouldn't 
it? And if it does meet the standards of an informal complaint, Vanessa 
was right, as her claims were found not credible by CID.
    Colonel Wempe. The manner in which sexual harassment complaints are 
documented, received, and resolved is established by DOD and Army 
policy. There are several ways in which a Soldier can make an informal 
complaint and trigger the sexual harassment complaint resolution 
process under Army Regulation 600-20. This includes reporting to the 
chain of command, a sexual assault response coordinator, a victim 
advocate, a local Inspector General, a member of the Staff Judge 
Advocate's office, the military police, a local Criminal Investigation 
Division office, or a health care provider. If a Soldier reports sexual 
harassment to family, friends, or peers it would not ordinarily trigger 
the sexual harassment complaint resolution process. However, SPC 
Guillen's unit has initiated an administrative investigation 
specifically looking into the allegations of sexual harassment that 
were reported by her family. The administrative investigation remains 
open and has not been approved by the command at this point in time. Of 
note, the FORSCOM Inspector General Inspection of Fort Hood's Sexual 
Harassment Assault Response Prevention (SHARP) Program looked for 
systemic problems within the program at Fort Hood, but did not examine 
specific allegations involving any individual Soldiers.
    Ms. Speier. If Vanessa shared her concerns with others, who were 
supposedly interviewed, how could the investigation have found no 
credible evidence of harassment by Vanessa?
    Colonel Wempe. The command has initiated an administrative 
investigation which is specifically looking into the allegations, as 
reported by her family, that Vanessa Guillen was sexually harassed. The 
administrative investigation remains open and has not been approved by 
the command at this point in time.
    Ms. Speier. Why were the statements made by her family, her sisters 
and fellow soldiers found ``not credible''?
    Colonel Wempe. The administrative investigation, which is 
specifically looking into the allegations of sexual harassment, as 
reported by her family, remains open and has not been approved by the 
command at this point in time.
    Ms. Speier. What standard is being used by investigators and SHARP 
in determining ``credible'' evidence?
    Colonel Wempe. A complaint investigated by the Command would be 
conducted as an administrative investigation in accordance with Army 
Regulation 15-6, which applies a ``preponderance of the evidence'' 
standard. This means that the findings must be supported by ``a greater 
weight of evidence than supports a contrary conclusion.'' Findings 
should be based on evidence, which, after considering all of the 
evidence obtained, points to a particular conclusion as being more 
credible and probable than any other conclusion.
    For criminal investigations, CID uses, the ``credible information'' 
standard as defined in DOD Instruction 5505.07, ``[i]nformation 
disclosed or obtained by a criminal investigator that considering the 
source and nature of the information and the totality of the 
circumstances, is sufficiently believable to lead a trained criminal 
investigator to presume the fact or facts in question are true.'' Once 
a criminal investigation uncovers ``credible information'' that a 
suspect has been involved in the commission of a crime, that individual 
is then recorded as a ``subject'' who has committed a criminal offense.
    Ms. Speier. Understanding that NCOs are many times the individuals 
preying on the young service members, are soldiers empowered to report 
outside their chain of command, in order to not involve their harasser 
in the reporting? If not, that means there is no way for a solider to 
report harassment by an NCO, without that NCO being involved in the 
reporting process, is that correct?
    Colonel Wempe. Yes, a Soldier can file a sexual harassment 
complaint without the alleged harasser being involved in the reporting 
process, even if the harasser is in the chain of command. Individuals 
who are victims of sexual harassment can file an informal, formal, or 
even an anonymous complaint to a range of official reporting agencies 
or individuals that include a local Inspector General, a member of the 
Staff Judge Advocate's office, the military police, a local Criminal 
Investigation Division office, a health care provider, or a sexual 
assault response coordinator or victim advocate. Additionally, the 
sexual harassment complainant, or another person familiar with the 
incident, may call the SHARP Hotline, 24 hours a day, seven days a week 
and request assistance with the matter. A Soldier who has experienced 
sexual assault can file a restricted or unrestricted report through 
their sexual assault response coordinator or victim advocate. If they 
desire to participate in the military justice process, victims may also 
go directly to the Criminal Investigations Division office on their 
installation. There is also a Department of Defense ``Safe Helpline'' 
available to help victims of sexual assault identify their reporting 
options as well as military and civilian support services in their 
local area.

                                  <all>
</pre></body></html>
